    DRUG ENFORCEMENT 

      ADMINISTRATION

ANNUAL FINANCIAL STATEMENTS

     FISCAL YEAR 2010

        U.S. Department of Justice

      Office of the Inspector General

               Audit Division


           Audit Report 11-16

             February 2011

 
         DRUG ENFORCEMENT ADMINISTRATION 

           ANNUAL FINANCIAL STATEMENTS 

                 FISCAL YEAR 2010


               OFFICE OF THE INSPECTOR GENERAL 

                  COMMENTARY AND SUMMARY


      This audit report contains the Annual Financial Statements of the Drug
Enforcement Administration (DEA) for the fiscal years (FY) ended
September 30, 2010, and September 30, 2009. Under the direction of the
Office of the Inspector General (OIG), KPMG LLP performed the DEA’s audit
in accordance with U.S. generally accepted government auditing standards.
The audit resulted in an unqualified opinion on the FY 2010 financial
statements. An unqualified opinion means that the financial statements
present fairly, in all material respects, the financial position and the results
of the entity’s operations in conformity with U.S. generally accepted
accounting principles. For FY 2009, the DEA also received an unqualified
opinion on its financial statements (OIG Report No. 10-14).

      KPMG LLP also issued reports on internal control and on compliance
and other matters. For FY 2010, the Independent Auditors’ Report on
Internal Control over Financial Reporting identified no deficiencies in internal
controls. In the FY 2010 Independent Auditors’ Report on Compliance and
Other Matters, the auditors identified no instances of non-compliance with
applicable laws and regulations and the Federal Financial Management
Improvement Act of 1996.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on the DEA’s financial statements,
conclusions about the effectiveness of internal control, conclusions on
whether the DEA’s financial management systems substantially complied
with the Federal Financial Management Improvement Act of 1996, or
conclusions on compliance with laws and regulations. KPMG LLP is
responsible for the attached auditors’ reports dated November 4, 2010, and
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with
U.S. generally accepted government auditing standards.
This page intentionally left blank.

      DRUG ENFORCEMENT ADMINISTRATION 

         ANNUAL FINANCIAL STATEMENTS 

                FISCAL YEAR 2010 

                          TABLE OF CONTENTS

                                                                             PAGE

MESSAGE FROM THE CHIEF FINANCIAL OFFICER..................................... 1


MANAGEMENT’S DISCUSSION AND ANALYSIS......................................... 5


INDEPENDENT AUDITORS’ REPORTS


   REPORT ON FINANCIAL STATEMENTS .............................................. 37


   REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING .......... 39


   REPORT ON COMPLIANCE AND OTHER MATTERS ............................... 43


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


   CONSOLIDATED BALANCE SHEETS ..................................................46


   CONSOLIDATED STATEMENTS OF NET COST ..................................... 47


   CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION ........... 48


   COMBINED STATEMENTS OF BUDGETARY RESOURCES ...................... 50


   COMBINED STATEMENTS OF CUSTODIAL ACTIVITY ........................... 52


   NOTES TO THE FINANCIAL STATEMENTS.......................................... 53


REQUIRED SUPPLEMENTARY INFORMATION


   COMBINING STATEMENTS OF BUDGETARY RESOURCES ..................... 88

This page intentionally left blank.

MESSAGE FROM THE CHIEF FINANCIAL OFFICER

Fiscal year 2010 was another successful year for the Drug Enforcement Administration
in financial management. For the twelfth consecutive year, we received an unqualified
("clean") audit opinion on our consolidated financial statements. Furthermore, our
financial statement audit is completely free of a.ny material weaknesses and significant
deficiencies. These audit results are evidence of the hard work and collaboration among
the 308 DEA offices world-wide and our commitment to sound financial management
practices.

Although extraordinarily challenging, DEA successfully implemented the Unified
Financial Management System (UFMS) in January 2009. Fiscal year 2010 was the first
full year of operating and processing all financial and procurement transactions in the
new system. The successful implementation of UFMS is critical to the future financial
successes of our agency, but ultimately we will always rely on the cooperation and
participation of DEA employees at all levels to achieve our goals and maintain our
already high standards in financial management.

The implementation of a new financial system brought to light several issues to be
addressed during the year. Chief among these challenges is DEA's ability to account for
our obligations in a tim~ly and accurate manner. Our abifity to properly manage agency
resources is key to the success of DEA's mission. I am pleased to say that although
there is still a great deal of work to be done in this area, significant progress was made
throughout the fiscal year. As a result of this hard work DEA's auditors did not identify
any significant findings related to the management of undelivered orders to be included
in the audit reports, as they did in fiscal year 2009.

On behalf of the Acting Administrator and entire Executive Staff, I would like to thank the
many talented and dedicated men and women in DEA who are responsible for this
year's exceptional record. DEA's Senior Leadership is keenly aware of the pivotal role
financial management plays in service to our Special Agents and other core personnel.
In particular, I would like to qongratulate the financial management staff in Headquarters
and the field for their tireless efforts to maintain solid financial management practices, as
evidenced by the outstanding results of this year's testing, even in the face. of a difficult
system implementation. I am privileged to be a part of this fine community of individuals
and I consider this report a reflection of the outstanding service these dedicated people
provide to DEA, day in and day out.


 ?~!(~
FranK M. Kalder
Chief Financial Officer
October 29, 2010
This page intentionally left blank.

Management’s Discussion and Analysis


              Unaudited

This page intentionally left blank.

                            U.S. DEPARTMENT OF JUSTICE

                         DRUG ENFORCEMENT ADMINISTRATION

                       MANAGEMENT’S DISCUSSION AND ANALYSIS 

                                     (unaudited)

MISSION AND ORGANIZATIONAL STRUCTURE

Mission

The mission of the Drug Enforcement Administration (DEA) is to enforce the controlled
substances laws and regulations of the United States (U.S.) and bring to the criminal and civil
justice system of the U.S., or any other competent jurisdiction, those organizations and principal
members of organizations involved in the growing, manufacturing, or distribution of controlled
substances appearing in or destined for illicit traffic in the U.S., including organizations that use
drug trafficking proceeds to finance terror; and to recommend and support enforcement-related
programs aimed at reducing the availability of and demand for illicit controlled substances on
the domestic and international markets.

Organizational Structure of the DEA

The DEA is a component of the Department of Justice (DOJ). It is headed by an Administrator,
who is appointed by the President and confirmed by the Senate. During fiscal year (FY) 2010,
the DEA operated a total of 226 Domestic Offices, which consisted of 21 Domestic Field
Divisions, through which 37 Domestic District Offices, 117 Resident Offices, and 51 Posts of
Duty reported. The DEA also operated 82 Foreign Offices, which consisted of 62 Foreign
Country Offices and 20 Resident Offices in 61 countries. Of the 82 Foreign Offices, nine offices
reported through Domestic Field Divisions (seven through the Caribbean Field Division and two
through the Miami Field Division).

The DEA’s authorized positions for FY 2010 are 10,908 positions, including 5,293 Special
Agents. The chart below provides a breakout of the DEA’s staffing by position category and
compares authorized positions to on-board strength at the end of FY 2010:

                                   FY 2010 Staffing Data 1
                                                                   On-Board Strength
        Position Category           Authorized Positions          September 30, 20102
  Special Agent                              5,293                         5,001
  Diversion Investigator                       516                           461
  Intelligence Specialist                      967                           816
  Chemist                                      349                           303
  Support3                                   3,783                         3,261
  TOTAL                                     10,908                         9,842
  1
    Includes 1,309 Organized Crime Drug Enforcement Task Force (OCDETF) Program
  reimbursable positions and 1 Joint Interagency Task Force (JIATF) Program
  reimbursable position.
  2
    Reflects on-board strength as of Pay Period 19, which ended September 25, 2010.
  Pay Period 19 is classified as the Final Pay Period for FY 2010 by the Office of
  Personnel Management (OPM) and DOJ.
  3
    Support includes all Professional/Administrative and Technical/Clerical Positions and
  Employees.
The chart below depicts the Headquarters Offices that report to the Deputy Administrator and/or
the Administrator:
FINANCIAL STRUCTURE

In FY 2010, the DEA had available funding in seven different annual, multi-year, and no-year
appropriations. Generally, the DEA’s annual appropriation provides for most, but not all, salaries
and expenses and core program activities, while multi-year and no-year funding provides for a
variety of specialized programs, activities, and functions.

PERFORMANCE INFORMATION

Resources

Under the DOJ Strategic Plan, the DEA’s resources are devoted to the achievement of DOJ
Strategic Goals 1, Prevent Terrorism and Promote the Nation’s Security, and 2, Prevent Crime,
Enforce Federal Laws, and Represent the Rights and Interests of the American People.


                              Table 1. Source of DEA Resources
                                    (Dollars in Thousands)

                     Source                            FY 2010         FY 2009        Change %
Earned Revenue:                                       $ 678,302        $ 593,283       14.3%
Budgetary Financing Sources:
Appropriations Received                                   2,053,353      1,959,084       4.8%
Appropriations Transferred In/Out                            39,756        158,467      (74.9)%
Other Financing Sources:
Transfers In/Out Without Reimbursement                       9,518          12,323      (22.8)%
Imputed Financing From Costs Absorbed by                    75,709          66,398       14.0%
Others
  Total                                              $ 2,856,638       $ 2,789,555       2.4%


                           Table 2. How DEA Resources are Spent
                                    (Dollars in Thousands)

              Strategic Goal (SG)                      FY 2010         FY 2009        Change %
SG 1. Prevent Terrorism and Promote the
Nation’s Security
                                Total Gross Cost      $    100,315       $ 66,558       50.7%
                    Less: Total Earned Revenue                 632            536       17.9%
                    Total Net Cost of Operations      $     99,683       $ 66,022       51.0%
SG 2. Prevent Crime, Enforce Federal Laws,
and Represent the Rights and Interests of the
American People
                                Total Gross Cost     $ 2,801,202      $ 2,672,648        4.8%
                    Less: Total Earned Revenue           677,670          592,747       14.3%
                    Total Net Cost of Operations     $ 2,123,532      $ 2,079,901        2.1%




                                              -7-
FY 2010 Financial Highlights

Strategic Goal 1, Prevent Terrorism and Promote the Nation’s Security, includes the DEA’s
membership in the Intelligence Community (IC), a special investigations unit, support of
counterterrorism intelligence inquiries, Afghanistan Foreign-deployed Advisory and Support
Teams (FAST), and the DEA’s enforcement operations in the Middle East, Central Asia, and
Southwest Asia, such as Operation Containment. FY 2010 is the fourth year that the DEA is
scoring resources as Strategic Goal 1. In FY 2010, Goal 1 net costs increased by 51 percent.
This is the result of a transfer from the State Department to support DEA operations in
Afghanistan. This funding was available to support DEA’s Afghanistan expansion efforts,
including 69 positions, in FY 2009 and FY 2010. Because the funding was received in August
2009, it was not obligated and expended until FY 2010.

Strategic Goal 2, Prevent Crime, Enforce Federal Laws, and Represent the Rights and
Interests of the American People, includes the majority of the DEA’s enforcement and
regulatory activities. In FY 2010, Strategic Goal 2 net costs increased by 2.1 percent.

Data Reliability and Validity

The DEA views data reliability and validity as critically important in the planning and assessment
of our performance. As such, this document includes a discussion of data validation, verification,
and any data limitations for each performance measure presented. Each Reporting Component
ensures that data reported meets the following criteria:

       At a minimum, performance data are considered reliable if transactions and other data that support reported
       performance measures are properly recorded, processed, and summarized to permit the preparation of
       performance information in accordance with criteria stated by management. Performance data need not be
       perfect to be reliable, particularly if the cost and effort to secure the best performance data possible will
       exceed the value of any data so obtained.

In addition, the DEA was requested to ensure that data reported met the Office of Management
and Budget (OMB) standards for data reliability as presented in OMB Circular No. A-11,
Preparing and Submitting Budget Estimates, Section 230.2 (f), Relationships Between the
Annual Program Performance Report, the Annual Performance Plan, and the Accountability
Report. Based on a review of the OMB standard, the DEA has determined that its performance
data is reliable.

FY 2010 REPORT ON SELECTED RESULTS

STRATEGIC GOAL 1: Prevent Terrorism and Promote the Nation’s Security – 4.5 percent of
the DEA’s Net Costs support this Goal.

PROGRAM:

Background/Program Objectives:

Intelligence and National Security

In recognition of the national security threat that illegal drugs pose to the U.S., the contributions
that the DEA makes in the area of national security, and the continued mandate for increased
intelligence sharing between law enforcement and intelligence agencies, DEA’s Office of
National Security Intelligence (ONSI) was designated a member of the Intelligence Community
(IC) in February 2006. Since February 2006, the DEA has enhanced its ability to exploit its
confidential sources for national and homeland security issues and the dissemination of
information to the IC and other law enforcement agencies.

The ONSI is a component of the DEA’s Intelligence Division (NC) within the DEA Headquarters.
The ONSI conducts exclusively the operational responsibilities of the NC in order to ensure
separation of the DEA’s intelligence and law enforcement functions. The objective of the ONSI is
to maximize the DEA’s contribution to national security, while protecting the primacy of its law
enforcement mission. Through the efforts of the ONSI, the DEA fulfills the requirement to share
intelligence mandated by the USA Patriot Act and the Attorney General’s guidelines to share
information. ONSI facilitates full and appropriate intelligence coordination and information
sharing with the other members of the IC and homeland security elements to enhance U.S.
efforts to reduce the supply of drugs, protect national security, and combat global terrorism.

The DEA collection management system, managed through the ONSI, plays a critical role in the
facilitation of information sharing with the IC. The system includes Intelligence Analysts based at
the DEA’s headquarters and in the field who serve as the interface between the IC and the
DEA’s primary law enforcement mission. The collection management system provides the tool
for satisfying internal DEA requirements as well as intelligence requirements from the law
enforcement community, IC, and other information-sharing partners. The ONSI, through its
Collection Requirements Unit, has developed and implemented methodologies for responding to
IC requirements with information derived from law enforcement operations and investigations.
These processes are designed to identify, gather, collate and disseminate information in
response to identified requirements in a structured manner that will maximize the value of the
information to the end user.

ONSI continues to build DEA’s Reports Officer Program, which is responsible for reviewing DEA
investigative and intelligence reporting for the purpose of extracting and disseminating to other
U.S. intelligence and federal law enforcement agencies information that could assist in protecting
homeland security. These Intelligence Information Reports (IIRs) enhance information sharing.
DEA’s Report Officer Program provides thousands of IIRs to the IC. These reports, while based
on information derived from drug investigations, provide information on a variety of national
security issues, including terrorism, WMD, biological weapons, political corruption, and foreign
policy interests.
.
Performance Measure: Percentage of IC Requests for Information (RFIs) Provided by the
Requested Deadline

FY 2001 Actual Performance           N/A, Measure first reported in FY 2009. 

FY 2002 Actual Performance           N/A, Measure first reported in FY 2009. 

FY 2003 Actual Performance           N/A, Measure first reported in FY 2009. 

FY 2004 Actual Performance           N/A, Measure first reported in FY 2009. 

FY 2005 Actual Performance           N/A, Measure first reported in FY 2009. 

FY 2006 Actual Performance           N/A, Measure first reported in FY 2009. 

FY 2007 Actual Performance           N/A, Measure first reported in FY 2009. 

FY 2008 Actual Performance           N/A, Measure first reported in FY 2009.

FY 2009 Actual Performance            90% 

FY 2010 Target                       100% 

FY 2010 Actual Performance            85%

    Data Collection and Storage: As a result of receiving RFIs from a variety of sources, including the DEA,
    IC, and Law Enforcement (LE) partners, the ONSI researches information and develops products. These
    products are internally tracked through an MS Access database. The ONSI also uses a SIPERNET-based
    shared system (FORUM) for customer and field units to track the status of the RFIs. The ONSI does not
    maintain any databases of IC or LE partners’ information. The answers to all RFIs are retained in a secure
    hard copy file section at the ONSI.
    Data Validation and Verification: Each RFI is validated through the ONSI CRMS Unit.
    Data Limitations: None known at this time.

Discussion of FY 2010 Results:

As of September 30, 2010, DEA provided 85 percent of IC RFIs by the requested deadline.
Each year, DEA’s target is to meet 100 percent of the requested deadlines; however, with the
newness of this program, there are anticipated fluctuations as the program grows. The decline
between on time performance between FY 2009 and FY 2010 reflects increased workload as
ONSI accepts more IC requests with short deadlines.

Background/Program Objectives:

Foreign-deployed Advisory and Support Teams (FAST)

The DEA’s FAST deployed to Afghanistan to provide guidance to DEA’s Afghan counterparts
and conduct bilateral investigations that identify, target, and dismantle illicit drug trafficking and
money laundering organizations. The DEA’s FAST also provide tactical and operational training
to Counter Narcotics Police - Afghanistan (CNP-A) officers assigned to the Narcotics Interdiction
Unit (NIU). The ultimate goal in Afghanistan is to conduct bilateral investigations in conjunction
with the NIU. The DEA assists the NIU in destroying clandestine labs, which includes seizing,
and in some cases destroying, precursor chemicals, opium, and opiate stockpiles as well as
improvised devices. Also, with FAST tactical and operational training, the NIU will be made
increasingly proficient in drug enforcement operations conducted unilaterally. A strengthened
NIU is required to fight the narcotics threat currently undermining the security and stability efforts
in Afghanistan. The FAST also play an important role in protecting the lives of both the U.S.
military and coalition partners.

Performance Measure: Number of Afghan NIU Officers Who Received Tactical and
Operational Training by FAST Agents.

Note: In FY 2009, DEA reexamined all agency-wide performance measures in response to DOJ
guidance and is discontinuing this measure in FY 2010; therefore, an FY 2010 target was not
established.

FY 2001 Actual Performance                 N/A, Measure first reported in FY 2006.
FY 2002 Actual Performance                 N/A, Measure first reported in FY 2006.
FY 2003 Actual Performance                 N/A, Measure first reported in FY 2006.
FY 2004 Actual Performance                 N/A, Measure first reported in FY 2006.
FY 2005 Actual Performance                 N/A, Measure first reported in FY 2006.
FY 2006 Actual Performance                 126
FY 2007 Actual Performance                 145 [Resources Scored as Goal 1 Beginning FY 2007.]
FY 2008 Actual Performance                 188
FY 2009 Actual Performance                 230
FY 2010 Target                             N/A, Measure is being discontinued.
FY 2010 Actual Performance                 330
    Data Collection and Storage: Statistics associated with FAST activities are gathered and
    tracked by the Office of Global Operations using applications such as Excel and Word. These
    statistics are provided to the Evaluation and Planning Section (FRE) and other Headquarters
    program offices on a quarterly basis.
    Data Validation and Verification: Data is reviewed upon receipt by the Office of Global
    Enforcement, FAST Section (OTF), but only technical or unusual deviations are checked.
    Data Limitations: None known at this time.

Discussion of FY 2010 Results:

As of September 30, 2010, 330 NIU received tactical and operational training from FAST.

In FY 2010, the FAST provided guidance, mentorship and tactical and operational training so
that the NIU will operate as a self sustained narcotics police institution capable of identifying and
disrupting heroin trafficking organizations linked to terrorists in Afghanistan. Training of the NIU
in FY 2010 has proven to be valuable in that the NIU seized drugs and munitions that belong to
anti-coalition forces, including the Taliban. The total number of NIU officers trained will continue
to fluctuate due to attrition as law enforcement officers are reassigned out of their unit if their
work performance does not meet appropriate standards set by the DEA and NIU supervisors.
Also, certain percentages of NIU officers resign, transfer out of the unit to pursue other
employment, or are killed in the line of duty.

Background/Program Objectives:

Enforcement Operations in the Middle East, Central Asia, and Southwest Asia - Operation
Containment

The DEA expanded its overseas presence to continue investigative efforts against organizations
in the Middle East, Central Asia, and Southwest Asia region and pursue links to foreign terrorist
organizations. The DEA implements administrative, diplomatic, and investigative measures to
reduce the flow of drugs into world markets and dismantle drug-related terrorist activities. The
DEA is currently engaging in proactive enforcement and intelligence gathering operations
targeting the command and control structure of heroin trafficking organizations in the Afghanistan
and Southwest Asia region. Specifically, in FY 2002, the DEA initiated Operation Containment,
an intensive, multi-national program that attempts to place a security belt around Afghanistan to
prevent processing chemicals from entering and opium and heroin from leaving. This initiative
supports existing Sensitive Investigative Units (SIUs) in Uzbekistan, Kyrgyzstan, and Tajikistan.

Performance Measure: Percent of Bilateral Investigations Initiated in the Middle East, Central
Asia, and Southwest Asia Region

Note: In FY 2009, DEA reexamined all agency-wide performance measures in response to DOJ
guidance and is discontinuing this measure in FY 2010; therefore, a FY 2010 target was not
established.

FY 2001 Actual Performance                    N/A, Measure first reported in FY 2006.
FY 2002 Actual Performance                    N/A, Measure first reported in FY 2006.
FY 2003 Actual Performance                    N/A, Measure first reported in FY 2006.
FY 2004 Actual Performance                    N/A, Measure first reported in FY 2006.
FY 2005 Actual Performance                    N/A, Measure first reported in FY 2006.
FY 2006 Actual Performance                    14%
FY 2007 Actual Performance                    12% [Resources Scored as Goal 1 Beginning FY
                                              2007]



                                              - 11 -
FY 2008 Revised Actual Performance               11% 

FY 2009 Actual Performance                       10% 

FY 2010 Target                                   N/A, Measure is being discontinued 

FY 2010 Actual Performance                       13%


    Data Collection and Storage: The number of Bilateral Investigations initiated in the Middle East,
    Central Asia, and Southwest Asia Region are retrieved from the DEA’s case tracking system, the
    Case Status Subsystem (CAST).
    Data Validation and Verification: Each originating office must conduct periodic reviews of its
    files. Active cases which do not have investigatory activity for a 90-day period must be reviewed
    by the Resident Agent in Charge or group supervisor. The Special Agent in Charge must review
    the status of all files on a semi-annual basis. Pending cases must be reviewed 180 days after
    they initially become "pending" and then every 90 days until closed. It is the responsibility of the
    field office supervisor to determine that the creation, maintenance, and the review of CAST file
    records are performed regularly. A review of the overall CAST record quality, other CAST
    concerns, or CAST statistics for a DEA field division are also provided to the Office of Inspections
    on an ad hoc basis.
    Data Limitations: The DEA is currently improving its reporting systems and its overall data
    quality. All statistics are limited by a lack of a relational link between case files and enforcement
    outputs (e.g. arrest, seizure, and work hour data). The link is inferred through data manipulation,
    but some areas are prone to error until all data systems are linked in a relational manner, and
    errors are prevented through data validation and referential integrity.

Discussion of FY 2010 Enforcement Operations in the Middle East, Central Asia, and
Southwest Asia Accomplishments:

As of September 30, 2010, 13 percent of all bilateral investigations were initiated in this region.

The DEA is working to establish a permanent presence and develop strong relationships with its
host nation law enforcement counterparts in countries located in this region. As there has been
a link established between terrorists and drug trafficking organizations, the DEA is engaging in
proactive drug enforcement and intelligence gathering operations with its host nation
counterparts by targeting the command and control structure of heroin trafficking organizations
operating in the Middle East, Central Asia, and Southwest Asia region. Through Operation
Containment, the DEA continued to work with countries from Central Asia, the Caucasus,
Europe, and Russia to reduce the heroin flowing out of Afghanistan.

However, despite DEA’s successes in this region, the DEA cannot operate unilaterally and is
constantly faced with complex external challenges that impede progress towards achievement of
agency goals and objectives. For example, most international drug laws are inadequate to
address counter drug efforts. Many countries lack effective legislative measures and the judicial
means to effectively impede illicit drug production, diversion, transportation, or distribution in their
countries. In addition, changes within foreign governments may hinder cooperation in host
countries in the areas of drug and chemical control. Therefore, the number of bilateral
investigations will continue to fluctuate as the DEA is faced with numerous external obstacles.




                                                  - 12 -
STRATEGIC GOAL 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights
and Interests of the American People – 95.5 percent of the DEA’s Net Costs support this Goal.

PROGRAM:

Background/Program Objectives:

International and Domestic Enforcement

The DEA is committed to bringing organizations involved in the growing, manufacturing, or
distribution of controlled substances to the criminal and civil justice system of the U.S., or any
other competent jurisdiction. To accomplish its mission, the DEA targets Priority Target
Organizations (PTOs), which represent the major drug supply and money laundering
organizations operating at the international, national, regional, and local levels that have a
significant impact upon drug availability in the United States. Specifically, the Priority Targeting
Program focuses on dismantling entire drug trafficking networks by targeting their leaders for
arrest and prosecution, confiscating the profits that fund continuing drug operations, and
eliminating international sources of supply. As entire drug trafficking networks from sources of
supply to the distributors on the street are disrupted or dismantled, the availability of drugs within
the United States will be reduced.

PTOs identified by the DEA’s domestic field divisions and foreign country offices are tracked
using the Priority Target Activity Resource Reporting System (PTARRS), an Oracle database
used to track operational progress and the resources used in the related investigations, (i.e.,
investigative work hours and direct case-related expenses). Through PTARRS, DEA assesses
and links PTOs to drug trafficking networks, which address the entire continuum of the drug
conspiracy.

In its effort to target PTOs, the DEA is guided by key drug enforcement programs such as the
Organized Crime Drug Enforcement Task Forces (OCDETF) program. Specifically, the DEA
participated in approximately 86 percent and had the lead or co-lead in approximately 79 percent
of all OCDETF investigations in FY 2010. The DEA, through the OCDETF program, targeted the
drug trafficking organizations on the DOJ’s FY 2010 Consolidated Priority Organization Target
(CPOT) list – the “Most Wanted” drug trafficking and money laundering organizations believed to
be primarily responsible for the Nation’s illicit drug supply.

The disruption or dismantlement of CPOT-linked organizations is primarily accomplished through
multi-agency and multi-regional investigations directed by the DEA and the Federal Bureau of
Investigation (FBI). These investigations focus on the development of intelligence-driven efforts
to identify and target drug trafficking organizations that play a significant role in the production,
transportation, distribution, and financial support of large scale drug trafficking operations. The
DEA’s ultimate objective is to dismantle these organizations so that reestablishment of the same
criminal organization is impossible.

The DEA’s long-term goal is to contribute to DOJ’s goal to reduce the supply of drugs available
for consumption in the United States. After multiple attempts by the Office of National Drug
Control Policy’s Drug Availability Steering Committee to develop a reliable methodology for
estimating the availability of the four major drug types (cocaine, heroin, marijuana, and
methamphetamine), DOJ's Associate Deputy Attorney General, Director of OCDETF has
concluded that, for the foreseeable future, there are no reliable national estimates of drug
availability in the United States. As a result, a Performance Measures Working Group was
established to develop a replacement outcome measure for DOJ's current long-term outcome
goal for drug enforcement - "Contribute to the Reduction in the Supply of Illegal Drugs Available
for Consumption in the U.S." The working group consists of representatives from DEA,
OCDETF, Asset Forfeiture Fund (AFF), FBI, Immigration and Customs Enforcement (ICE), and
the National Drug Intelligence Center (NDIC). The intent of the Working Group is to include the
agreed upon replacement long-term outcome goal in DOJ's new Strategic Plan, which is
scheduled to be published during the fall of 2010.

As the nation’s preeminent drug law enforcement organization, the DEA has also the
responsibility to respond to the drug enforcement training needs of the U.S. law enforcement
community. Each law enforcement officer trained to conduct narcotics investigations contributes
to the nationwide counterdrug effort. By teaching others the methodologies and techniques of
drug enforcement, the DEA is able to expand drug enforcement across the United States in a
very cost-effective manner.

Performance Measure: Disrupt or Dismantle International and Domestic PTOs Linked to CPOT
Targets and Not Linked to CPOT Targets

FY 2001 Actual Performance                      94 PTOs Disrupted or Dismantled
                                                (94 Not Linked to CPOT)
FY 2002 Actual Performance                      222 PTOs Disrupted or Dismantled
                                                (30 Linked to CPOT / 192 Not Linked to CPOT)
FY 2003 Actual Performance                      458 PTOs Disrupted or Dismantled
                                                (52 Linked to CPOT / 406 Not Linked to CPOT)
FY 2004 Actual Performance                      706 PTOs Disrupted or Dismantled
                                                (160 Linked to CPOT / 546 Not Linked to CPOT)
FY 2005 Actual Performance                      1,152 PTOs Disrupted or Dismantled
                                                (283 Linked to CPOT / 869 Not Linked to CPOT)
FY 2006 Actual Performance                      1,305 PTOs Disrupted or Dismantled.
                                                (231 Linked to CPOT/ 1,074 Not Linked to CPOT)
FY 2007 Actual Performance                      1,537 PTOs Disrupted or Dismantled.
                                                (195 Linked to CPOT/ 1,342 Not Linked to CPOT)
FY 2008 Actual Performance                      2,291 PTOs Disrupted or Dismantled
                                                (337 Linked to CPOT / 1,954 Not Linked to CPOT)
FY 2009 Actual Performance                      2,362 PTOs Disrupted or Dismantled
                                                (364 Linked to CPOT1 / 1,998 Not Linked to CPOT)
FY 2010 Target                                  2,670 PTOs Disrupted or Dismantled
                                                (385 Linked to CPOT / 2,285 Not Linked to CPOT)
FY 2010 Actual Performance                      2,673 PTOs Disrupted or Dismantled
                                                (501 Linked to CPOT2 / 2,172 Not Linked to CPOT




1
  FY 2009: 364 consists of 123 Dismantlements and 241 Disruptions of PTOs linked to CPOT. These numbers are included in the
table on page 14. These numbers represent DEA’s portion of the actual performance reported in DOJ’s Consolidated MD&A and
Performance and Accountability Report. Since there may be some overlap in the disruptions and dismantlements reported by FBI
and DEA, the numbers are deconflicted and consolidated to avoid double counting. Therefore it may not be poss ble to add DEA’s
and FBI’s totals to arrive at DOJ’s Consolidated Target/Actual.

2
  FY 2010: 501 consists of 172 Dismantlements and 329 Disruptions of PTOs linked to CPOT. These numbers are included in the
table on page 14. These numbers represent DEA’s portion of the actual performance reported in DOJ’s Consolidated MD&A and
Performance and Accountability Report. Since there may be some overlap in the disruptions and dismantlements reported by FBI
and DEA, the numbers are deconflicted and consolidated to avoid double counting. Therefore it may not be poss ble to add DEA’s
and FBI’s totals to arrive at DOJ’s Consolidated Target/Actual.
                                                                   Priority Target Organizations (PTOs)

                                                                   International & Domestic Enforcement

                                                                                                        1

                                                                           Disrupted and Dismantled

                                                                   OCDETF                                    Non-OCDETF                                     Total


     Fiscal Year            PTO Linkages            PTOs       PTOs                             PTOs            PTOs                        PTOs             PTOs
                                                                                  Total                                       Total                                       Total
                                                  Disrupted Dismantled                        Disrupted      Dismantled                   Disrupted       Dismantled



                                                       2               2            2             2              2              2             2               2             2
    FY 2001 Actual    PTOs Linked to CPOT
                      PTOs Not Linked to CPOT              27               41          68            16             10             26              43              51            94
                      Total, FY 2001 Actual                27               41          68            16             10             26              43              51            94
                                            3
    FY 2002 Actual    PTOs Linked to CPOT                   5                9           14           12              4             16              17               13          30
                      PTOs Not Linked to CPOT              54               70          124           34             34             68              88              104         192
                      Total, FY 2002 Actual                59               79          138           46             38             84             105              117         222
                                            3
    FY 2003 Actual    PTOs Linked to CPOT                   29               6           35           10              7              17             39               13          52
                      PTOs Not Linked to CPOT              186              99          285           77             44             121            263              143         406
                      Total, FY 2003 Actual                215             105          320           87             51             138            302              156         458

    FY 2004 Actual    PTOs Linked to CPOT                  103              20          123            32             5              37            135               25         160
                      PTOs Not Linked to CPOT              217             135          352           125            69             194            342              204         546
                      Total, FY 2004 Actual                320             155          475           157            74             231            477              229         706

    FY 2005 Actual    PTOs Linked to CPOT                  133              77          210            47             26             73            180              103       283
                      PTOs Not Linked to CPOT              338             253          591           179             99            278            517              352       869
                      Total, FY 2005 Actual                471             330          801           226            125            351            697              455     1,152

    FY 2006 Actual    PTOs Linked to CPOT                  102              48          150            52             29             81            154               77       231
                      PTOs Not Linked to CPOT              424             258          682           232            160            392            656              418     1,074
                      Total, FY 2006 Actual                526             306          832           284            189            473            810              495     1,305

    FY 2007 Actual    PTOs Linked to CPOT                  84               49          133            40             22             62             124              71       195
                      PTOs Not Linked to CPOT              515             293          808           363            171            534             878             464     1,342
                      Total, FY 2007 Actual                599             342          941           403            193            596           1,002             535     1,537

    FY 2008 Actual    PTOs Linked to CPOT                  167              52       219               84             34            118             251              86       337
                      PTOs Not Linked to CPOT              788             334     1,122              555            277            832           1,343             611     1,954
                      Total, FY 2008 Actual                955             386     1,341              639            311            950           1,594             697     2,291

    FY 2009 Actual    PTOs Linked to CPOT                  130              81       211              111             42          153               241             123       364
                      PTOs Not Linked to CPOT              639             397     1,036              604            358          962             1,243             755     1,998
                      Total, FY 2009 Actual                769             478     1,247              715            400        1,115             1,484             878     2,362
                                                               4              4           4             4                 4           4
    FY 2010 Target    PTOs Linked to CPOT                                                                                                           251             134       385
                                                               4              4           4             4                 4           4
                      PTOs Not Linked to CPOT                                                                                                     1,422             863     2,285
                                                               4              4           4             4                 4           4
                      Total, FY 2010 Target                                                                                                       1,673             997     2,670

    FY 2010 Actual    PTOs Linked to CPOT                  177             111       288              152             61          213               329             172       501
                      PTOs Not Linked to CPOT              611             404     1,015              733            424        1,157             1,344             828     2,172
                      Total, FY 2010 Actual                788             515     1,303              885            485        1,370             1,673           1,000     2,673
1
  Includes disruptions, closed (PTARRS status code E) and disruptions pending dismantlements (PTARRS status code D) Prior to FY 2003, DEA did not include
disruptions pending dismantlements its reported numbers of PTO disruptions
2
    The CPOT list was not developed until the end of FY 2002
3
  Not all information concerning direct links between PTOs and CPOT targets is maintained in PTARRS The number of domestic PTOs linked to CPOT targets for FY
2002 and FY 2003 were identified by an analysis conducted at headquarters In October 2003, PTARRS began to track PTOs with direct links to CPOT targets, which
are identified by the field and validated by headquarters
4
    For planning purposes and the establishment of targets, DEA does not differentiate between OCDETF and non-OCDETF investigations
Data Definition: Disruption means impeding the normal and effective operation of the targeted
organization, as indicated by changes in organizational leadership and/or changes in methods of
operation, including, for example, financing, trafficking patterns, communications or drug
production. Disruption Pending Dismantlement means impeding the normal and effective
operation of the targeted organization, but continuing towards the organization’s complete
evisceration such that it is incapable of operating and/or reconstituting itself. Dismantlement
means destroying the organization’s leadership, financial base and supply network such that the
organization is incapable of operating and/or reconstituting itself. The first CPOT List was issued
in September 2002, and is updated semi-annually. The List identifies the most significant
international drug trafficking and money laundering organizations and those primarily responsible
for the Nation’s drug supply. Enforcement agencies are focused on identifying links among
disparate domestic drug trafficking and money laundering organizations and on making
connections to their ultimate sources of supply. Investigators continually work up and across the
supply chain, with the goal of disrupting and dismantling the entire network controlled by or
supporting a given CPOT organization. An organization is considered "linked" to a CPOT, if
credible evidence exists (i.e., from corroborated confidential source information, phone tolls, Title
III intercepts, financial records, or other similar investigative means) of a nexus between the
primary target of the investigation and a CPOT target. The nexus need not be a direct
connection to the CPOT, so long as a valid connection exists to a verified associate or
component of the CPOT organization.
Data Collection and Storage: Each Country Office Attaché or Special Agent in Charge (SAC)
nominates PTOs in PTARRS based on intelligence information. Headquarters staff ensures that
PTOs are tracked and nominations are supported by data and information.
Data Validation and Verification: PTARRS provides its users with a means of electronically
proposing, nominating, reviewing, editing, and tracking PTO investigations, including the PTO’s
eventual disruption and dismantlement. The roles in the electronic approval chain are as follows:
• Special Agent (SA) - The SA, Task Force Officer, or Diversion Investigator collects data on lead
cases that will be proposed as PTOs. They can create, edit, update, and propose a PTO record.
• Group Supervisor (GS) – The GS/Country Attaché (CA) coordinates and plans the allocation of
resources for a proposed PTO. The GS/CA can create, edit, update, propose, resubmit, and
approve a PTO record.
• Assistant Special Agent in Charge (ASAC) - The ASAC/Assistant Regional Director
(ARD) reviews the PTO proposed and approved by the GS/CA, ensuring that all the necessary
information meets the criteria for a PTO. The ASAC/ARD can also edit, update, resubmit, or
approve a proposed PTO.
• Special Agent in Charge (SAC) - The SAC/Regional Director (RD) reviews the proposed PTO
from the ASAC/ARD and is the approving authority for the PTO. The SAC/RD can also edit,
update, resubmit, or approve a proposed PTO.

Headquarters Responsibilities
• Operations Division (OC) – The Section Chief of OMD, or his designee, is the PTO
Program Manager, and is responsible for the review of all newly approved PTO submissions and
their assignment to the applicable OE or FO section. The PTO Program Manager may request
that incomplete submissions be returned to the field for correction and resubmission. OMD is also
responsible for tracking and reporting information in the PTO Program through PTARRS; and is
the main point-of-contact for the PTO program and PTARRS related questions.
• OMD will assign PTO’s based on the nexus of the investigation to organizations located in
specific geographic areas of the world, or to specific program areas. After assignment of a PTO,
the appointed HQ section becomes the point-of-contact for that PTO and division/region
personnel should advise appropriate HQ section personnel of all significant activities or requests
for funding during the course of the investigation. The Staff Coordinator (SC) assigned to the
PTO will initiate a validation process to include a review for completeness and confirmation of all
related linkages (e.g., CPOTs.) In the unlikely event that the documentation submitted is
insufficient to validate reported linkages the SC will coordinate with the submitting office to obtain
the required information.
• All PTO cases that are reported as disrupted or dismantled must be validated by OMD or OMO.
OMD will validate all non-OCDETF related PTO cases and OMO will validate all OCDETF related
cases. These disruptions and dismantlements are reported to the Executive Office of OCDETF
via memo by OMO.
Data Limitations: All statistics are limited by a lack of a relational link between case files and
enforcement outputs (e.g., arrest, seizure, and work hour data). The link is inferred through data
manipulation, but some areas are prone to error until all data systems are linked in a relational
manner, and errors are prevented through data validation and referential integrity.

Discussion of FY 2010 International and Domestic Enforcement
Accomplishments:

As of September 30, 2010, the DEA disrupted or dismantled 2,673 PTOs, which is 0.11
percent above its FY 2010 target of 2,670. When compared with FY 2009 actuals (2,362
PTOs disrupted or dismantled), this also represents a 13 percent increase in
performance. Morever, a comparison of the FY 2009 actuals and the FY 2010 target
further demonstrates DEA’s willingness to both set ambitious target and focus its limited
resources toward achieving those goals. While the number of CPOT linked PTO
disruptions/dismantlements greatly exceeded its target by 30 percent, for the first time
the number of non-CPOT linked PTO failed to reach its target by 4.9 percent. However,
this is not necessarily bad news because DEA’s primary goal is to identify and
disrupt/dismantle the most insidious and dangerous trafficking organizations who pose
the greatest threat to our national security and public health; CPOT linked PTOs. Due to
the implementation of enhanced internal and external (OCDETF) validation protocols,
DEA mandated that its Special Agents intensify their efforts and investigate in a more
collaborative manner with its financial and intelligence assets to work through the
complexity of each PTO investigation to either establish and further document CPOT
linkages or rule them out. The weighted distribution of the FY 2010 PTO disruptions or
dismantlements (actual to target) in favor of CPOT linked PTOs over not CPOT linked
bears it out. This is a testament to those collaborative and better coordinated efforts by
DEA leadership in the field and at Headquarters.

The investigations against these targets have become much more complex. Law
enforcement is pursuing more complex investigative techniques to achieve a significant
impact against these organizations. This inherently takes more time. Utilizing such
techniques as electronic surveillance and in-depth financial investigations has permitted
the DEA to improve upon its success in permanently dismantling major drug trafficking
organizations. However, these sophisticated techniques are more time intensive and as
a result investigations can last for several years.

Two recent, significant accomplishments in FY 2010 are as follows:

   February 2010 was a landmark month in DEA’s efforts against Mexican drug cartels
    and the successes would not have been possible without the continuing close
    cooperation between the U.S. and the Government of Mexico. On February 4,
    Miguel Caro-Quintero was sentenced to 17 years in a U.S. federal prison. Miguel
    Caro-Quintero had assumed control of the family organization after the arrest of his
    brother Rafael Caro-Quintero,who was complicit in the kidnapping, torture, and
    murder of DEA Special Agent Enrique Camarena. Caro-Quintero had previously
    admitted to trafficking more than 100 tons of marijuana from 1985 through 1988,
    resulting in more than $100,000,000 in payment being sent to Mexico. On February
    19, Mexico extradited Vicente Zambada-Niebla, a leader in the Sinaloa Cartel and




                                             - 17 -
   son of kingpin Ismael “Mayo” Zambada-Garcia. Zambada-Niebla and other leaders
   of the Sinaloa Cartel coordinated their narcotics trafficking activities to import multi-
   ton quantities of cocaine from Central and South America to the interior of Mexico,
   using various means of transportation. Then, they allegedly smuggled hundreds of
   kilograms of cocaine at a time, as well as multi-kilograms of heroin, across the U.S.
   border to Chicago and throughout the U.S.

	 On June 9, 2010, 429 arrests took place in 16 states as part of “Project Deliverance,”
   which targeted the transportation infrastructure of Mexican drug trafficking
   organizations in the United States, especially along the Southwest border, through
   coordination between federal, State and local law enforcement. More than 3,000
   agents and officers operated across the United States to make the arrests. Also,
   $5.8 million, 17 pounds of methamphetamine, 112 kilograms of cocaine, 2,951
   pounds of marijuana, 141 weapons and 85 vehicles were seized by law enforcement
   agents. In addition to 2,266 arrests overall, “Project Deliverance” has led to the
   seizure of $154 million, and 1,262 pounds of methamphetamine, 2.5 tons of cocaine,
   1,410 pounds of heroin, 69 tons of marijuana, 501 weapons and 527 vehicles during
   the 22-month multi-agency law enforcement operation.

Background/Program Objectives:

State and Local Assistance

The DEA supports State and local law enforcement with methamphetamine-related
assistance and training, which allows State and local agencies to better address the
methamphetamine threat in their communities and reduce the impact that
methamphetamine has on the quality of life for American citizens.

One of the most critical, specialized training programs offered by DEA to State and local
law enforcement officers is in the area of Clandestine Laboratory Training. Often, it is
the State and local police who first encounter the clandestine laboratories and must
ensure that they are investigated, dismantled, and disposed of appropriately.

The DEA offers three Clandestine Laboratory Training courses (State and Local
Clandestine Laboratory Certification, Clandestine Laboratory Site Safety, and
Clandestine Laboratory Tactical training). The first two courses provide detailed
information regarding Occupational Safety and Health Administration (OSHA)
regulations and standards. Officers are informed of the hazards that they are likely to
encounter and how to handle these hazards. For example, during training, officers
become familiar with the personal protective equipment that must be worn when
dismantling a clandestine lab. During the third course, officers are taught the difference
between traditional drug investigations and clandestine laboratory investigations.
Teaching others the techniques used to investigate and dismantle clandestine
laboratories acts as a force multiplier for the DEA.

Performance Measure: Total Number of State and Local Law Enforcement Officers
Trained in Clandestine Laboratory Enforcement

FY 2001 Actual Performance            1,049
FY 2002 Actual Performance            1,275
FY 2003 Actual Performance            1,573
FY 2004 Actual Performance             1,029
FY 2005 Actual Performance             1,043
FY 2006 Actual Performance             1,077
FY 2007 Actual Performance               952
FY 2008 Actual Performance               968
FY 2009 Actual Performance               873
FY 2010 Target                           950
FY 2010 Actual Performance             1,306

 Data Collection and Storage: The DEA Training Academy receives quarterly training data from the
 field on training provided by Division Training Coordinators (DTC). The field data is combined with the
 data generated by the DEA’s Training Academy for total training provided by the DEA. Data is tabulated
 quarterly based on the fiscal year.
 Data Validation and Verification: Data is reviewed upon receipt, but only technical or unusual
 deviations are checked.
 Data Limitations: None known at this time.

Discussion of FY 2010 State and Local Assistance Accomplishments:

As of September 30, 2010, DEA trained 1,306 State and local law enforcement officers
in Clandestine Laboratories in FY 2010. The DEA Office of Training exceeded its target
of training 950 State and local law enforcement officers in FY 2010 by 37.5 percent.
This was attributed to additional Clandestine Laboratory Training conducted in
association with the Federal Bureau of Investigation (FBI) and the National Improvised
Explosive Familiarization (NIEF) Program.

Background/Program Objectives:

Diversion Control

The Diversion Control Program (DCP) is responsible for carrying out a primary mission
of the DEA: to enforce the Controlled Substances Act (CSA) and its regulations
pertaining to pharmaceutical controlled substances and listed chemicals. The DCP
actively monitors more than 1.3 million individuals and companies that are registered
with the DEA to handle controlled substances or listed chemicals through a system of
scheduling, quotas, recordkeeping, reporting, and security requirements.

The DCP implements an infrastructure of controls established through the CSA and
ancillary regulations. This system balances the protection of public health and safety by
preventing the diversion of controlled substances and listed chemicals while ensuring an
adequate and uninterrupted supply for legitimate needs. The DCP conducts and
facilitates domestic and international investigations; plans and allocates program
resources; promulgates regulations; and conducts liaison with industry as well as
federal, state, and local counterparts.

The Problem of Diversion

The diversion and abuse of pharmaceutical controlled substances has long been a
problem, but these problems have become more acute in recent years. There are many
factors contributing to the increased abuse of prescription drugs. Many mistakenly
believe that abusing prescription drugs is safer than using illicit street drugs.
Prescription drugs are easily obtainable from friends and family. Moreover, many people
are not aware of the potentially serious consequences of using prescription drugs non-
medically.

Over the last several years, national surveys have documented the fact that a significant
number of Americans are abusing controlled substance prescription drugs for
nonmedical purposes. According to the 2009 National Survey on Drug Use and Health
(published in September 2010) 7 million Americans were current non-medical users of
psychotherapeutic drugs. Of that number 5.3 million Americans abused pain relievers.
The survey also indicated that the abuse of prescription drugs was second only to
marijuana and had the largest number of new initiates.

The Centers for Disease Control (CDC) reported that “the number of deaths involving
prescription opioid analgesics increased from roughly 2,900 in 1999 to 7,500 in 2004, an
increase of 158.6 percent in 5 years.” The CDC also reported that unintentional
poisoning deaths attributed to methadone increased from 786 in 1999 to 4,462 in 2005,
a 467.7 percent change, and that unintentional poisoning deaths attributed to
psychotherapeutic drugs increased from 671 in 1999 to 1,300 in 2004, a 93.7 percent
change. According to the CDC, opioid analgesics were involved in almost 40 percent of
all poisoning deaths in 2006.

The Florida Medical Examiner’s Commission reported that in 2006, there were 2,230
deaths associated with prescription drugs in the State of Florida, an average of 6 deaths
per day. In 2007, the Florida Medical Examiner’s Commission reported that there were
2,752 lethal dose reports of prescription drugs detected in deceased persons in the
State of Florida or an average of more than 7.5 persons per day. In 2009, there were
3,571 deaths related to prescription drugs or an average of nearly 9.8 deaths per day in
Florida.

DEA focuses the majority of its investigations on where the diversion occurs the most, at
the pharmacy and practitioner level of the distribution chain. These investigations may
include non-registrants or end users who are involved in large-scale diversion. Other
forms of diversion may include, thefts and robberies from pharmacies, illegal Internet
distribution organizations (individuals and organizations that operate over the Internet
and prescribe and dispense controlled substances without a valid prescription),
prescription fraud and doctor shopping.

On September 25, 2010, the Drug Enforcement Administration (DEA) coordinated the
National Take Back Day. Approximately 4,094 collection sites and 2,992 state and local
law enforcement agencies participated in this first-ever nationwide program to remove
potentially dangerous controlled substances from our nation's medicine cabinets.
Approximately 121 tons of potentially dangerous drugs were collected during the one-
day event. As stated by Acting Administrator Michele M. Leonhart “This effort
symbolizes DEA’s commitment to halting the disturbing rise in addiction caused by their
misuse and abuse. Working together with our state and local partners, the medical
community, anti-drug coalitions, and a concerned public, we will eliminate a major
source of abused prescription drugs, and reduce the hazard they pose to our families
and communities in a safe, legal, and environmentally sound way.”




                                         - 20 -
All of the goals, strategies and initiatives supported by the DCP are intended to establish
stronger standards of control, aid in preventing the diversion of pharmaceutical
controlled substances and chemicals, and enhance public safety by building greater
accountability and qualitative reporting requirements into its network of compliance
indicators.

Diversion of Controlled Chemicals: Almost all illicit drugs are produced using a
combination of chemicals that react either upon an organic base ingredient or, in the
case of synthetic drugs, with each other to produce the finished drug. Almost all of these
chemicals have legitimate uses. Most are widely available in household cleaning and
healthcare products and throughout a large variety of manufacturing industries.
Cocaine, for example, is extracted from coca leaves and converted into its most
common form by using a large quantity and variety of industrial chemicals. Heroin is
synthesized using a combination of acetylating and purifying agents after morphine has
first been extracted in a chemical process from raw opium. Methamphetamine, PCP,
LSD, and MDMA are synthetic drugs manufactured from various chemical precursors.

DEA has initiated and actively participates in several ongoing, multi-national operations
to prevent, detect, and eliminate the diversion of chemicals and other precursor
substances across global markets. On the domestic front, the DEA has liaison and
outreach programs with the chemical industry to improve cooperation and compliance
with new and on-going initiatives implemented to reduce the amount of diversion. On
the international front, the DEA is working to increase its efforts to conduct and improve
overseas liaison by providing international chemical control training to foreign law
enforcement officials. The resultant training has enabled foreign counterparts to improve
their ability to detect and identify clandestine shipments of banned chemical imports
thereby denying source country traffickers the requisite precursors and reagents
necessary to refine and produce illegal drugs.

Performance Measure (Pharmaceuticals & Listed Chemicals): CSA Compliance
among Adjusted Type B Registrants – Adjusted Type B Registrant Compliance Indicator

Note: In FY 2009, DEA reexamined all agency-wide performance measures in response
to DOJ guidance and is discontinuing this measure in FY 2010; therefore, a FY 2010
target was not established.

FY 2001 Actual Performance            95.38 %      

FY 2002 Actual Performance            95.80 %      

FY 2003 Actual Performance            97.70 %      

FY 2004 Actual Performance            96.83 %      

FY 2005 Actual Performance            97.04 %

FY 2006 Actual Performance            95.66 %

FY 2007 Actual Performance            97.10 % 

FY 2008 Actual Performance            88.54 % 

FY 2009 Actual Performance            94.90 % 

FY 2010 Target                        N/A, Measure Discontinued 

FY 2010 Actual Performance            94.54% 





                                          - 21 -
Data Definition: Type B Registrants manufacture and distribute controlled substances at the
wholesale level. These include manufacturers, distributors, analytical labs, importers/exporters and
narcotic treatment programs. The Adjusted Number of Type B Registrants excludes researchers and
analytical labs because the amount of controlled substances maintained or supplied to these Type B
registrants is minimal and the risk to public safety nominal relative to the vast amount of controlled
substances handled by manufacturers, distributors, importer/exporters and narcotic treatment
programs. Non-Compliant Type B registrants include all type B registrants sanctioned for CSA
violations within the fiscal year of interest. Adjusted Type B Compliance Indicator (%) = (Adjusted
Number of Type B Registrants − Adjusted Number of Non-Compliant Type B Registrants) / (Adjusted
Number of Type B Registrants) X 100 %. At the beginning of each fiscal year, the number of Adjusted
Type B Registrants is identified. The cumulative number of administrative, civil, and criminal sanctions
levied against these registrants is documented and reported on a quarterly basis.
Data Collection and Storage: During the reporting quarter, the Diversion field offices change the
status of a registrant’s CSA2 master record to reflect any regulatory investigative actions that are being
conducted on the registrant. The reporting of the regulatory action by each field office is available on a
real-time basis through the reporting system within CSA2 as the investigative status change occurs.
The regulatory investigative actions that are collected in a real-time environment are as follows: letters
of admonition/memorandum of understanding (MOU), civil fines, administrative hearing, orders to show
cause, restricted records, suspensions, surrenders for cause, revocations, and applications denied.
The CSA2 enables the DEA to maintain all of the historical and investigative information on the DEA
registrants. It also serves as the final repository for a majority of punitive (i.e., sanctions) actions levied
against CSA violators.
Data Validation and Verification: The Diversion Investigator and the field office Group Supervisor
(GS) are tasked to ensure that timely and accurate reporting is accomplished as the registrant’s
investigative status changes. Both the GS and the Diversion Program Manager (DPM) have the ability
to view the report of ingoing and completed regulatory investigation actions for their office/division at
any time during the quarter or at the quarter’s end, since the actions are in real-time.
Data Limitations: The enforceable longevity (duration) and the severity of the sanctions levied vary
among registrants types and jurisdictions. Because there is no adequate methodology for normalizing
these data we have to rely on Diversion’s data validation and verification procedures. Therefore, while
the DEA acknowledges this data limitation, it asserts that these data have “face” or intrinsic validity due
to the quality controls in place. Diversion affirms that it will continue to proactively test and evaluate its
validation and verification procedures in order to ensure the quality and reliability of its data.

   Discussion of FY 2010 Diversion Control Accomplishments:

   The DEA computes the Percentage of Adjusted Type B Registrants that are in
   Compliance with the CSA at the end of each quarter as an assessment of its overall
   performance. This performance measure tracks the percentage of the wholesale
   population or “bulk handlers” of controlled substances that are compliant with the CSA,
   and it represents a key measure of the agency’s effort to safeguard the public.

   In FY 2010, the DEA reported 94.54 percent compliance. The Adjusted Type B
   Compliance Indicator is a “negative” or “inverse” measure that demonstrates the DEA’s
   effectiveness in detecting violators and applying sanctions against CSA violators.
   Overall, from FY 2003 through FY 2010, the data clearly demonstrates temporal
   fluctuations in the level of CSA compliance that can be expected as CSA violators are
   identified, sanctioned, and eventually removed from the registrant population. The data
   also shows that the combined enforcement and regulatory efforts of the DCP
   successfully ensures a high degree of compliance among its registrant population.

   Performance Measure (Chemicals): Percentage of Mandated List I Chemical
   Regulatory Investigations Initiated




                                                   - 22 -
   Note: In FY 2009, DEA reexamined all agency-wide performance measures in response
   to DOJ guidance and is discontinuing this measure in FY 2010; therefore, a FY 2010
   target was not established.

   FY 2001 Actual Performance                 118.0 %
   FY 2002 Actual Performance                 139.0 %
   FY 2003 Actual Performance                 119.0 %
   FY 2004 Actual Performance                  90.0 %
   FY 2005 Actual Performance                  98.0%
   FY 2006 Actual Performance                  85.0 %
   FY 2007 Actual Performance                  90.0 %
   FY 2008 Actual Performance                 106.7 %
   FY 2009 Actual Performance                 118.1%
   FY 2010 Target                             N/A, Measure Discontinued
   FY 2010 Actual Performance                 149.7%

Data Definition: List I Chemical Investigations (%) = Number of List I Chemical Investigations /
Number of non-supervisory Diversion Investigators (DIs) on board at the start of the fiscal year. Note:
The Number of Chemical Investigations (fiscal year target) is pre-determined by the on-board strength
of non-supervisory DIs at the beginning of the fiscal year. Each non-supervisory DI is required to
conduct at least one, but no more than two, List I regulatory investigations per fiscal year. Thus, the
annual target or goal is one investigation per non-supervisory DI and it is expressed as a percentage of
non-supervisory DIs on board or 100%. The cumulative number of List I Chemical Investigations is
documented and reported on a quarterly basis.
Data Collection and Storage: During the reporting quarter, the Diversion field offices change the
status of a registrant’s CSA2 master record to reflect any regulatory investigative actions that are being
conducted on the registrant. The reporting of the regulatory action by each field office is available on a
real-time basis through the reporting system within CSA2, as the investigative status change occurs.
The regulatory investigative actions that are collected in a real-time environment are as follows: letters
of admonition/MOU, civil fines, administrative hearings, orders to show cause, restricted records,
suspensions, surrenders for cause, revocations, and applications denied. The CSA2 enables the DEA
to maintain all of the historical and investigative information on the DEA registrants. It also serves as
the final repository for a majority of punitive (i.e., sanctions) actions levied against CSA violators.
Data Validation and Verification: The Diversion Investigator and the field office GS are tasked to
ensure that timely and accurate reporting is accomplished as the registrants investigative status
changes. Both GS and the DPM have the ability to view the report of ingoing and completed regulatory
investigation actions for their office/division at any time during the quarter or at the quarter’s end, since
the actions are in real-time.
Data Limitations: The enforceable longevity (duration) and the severity of the sanctions levied vary
among registrants types and jurisdictions. Because there is no adequate methodology for normalizing
these data we have to rely on Diversion’s data validation and verification procedures. Therefore, while
the DEA acknowledges this data limitation, it asserts that these data have “face” or intrinsic validity due
to the quality controls in place. Diversion affirms that it will continue to proactively test and evaluate its
validation and verification procedures in order to ensure the quality and reliability of its data.

   Discussion of FY 2010 Diversion Control Accomplishments:

   The availability of List I chemicals on the Internet has provided traffickers with an almost
   unlimited supply of the chemicals needed to manufacture illicit substances. This trend
   almost mirrors the availability of pharmaceutical products on the Internet. In order to
   meet this challenge, the DEA needs to aggressively identify and shut down these
   Internet sites. Diversion Investigators are uniquely qualified to assess production




                                                   - 23 -
   capabilities, assess chemical trafficking patterns, and develop leads on individuals and
   businesses engaged in the diversion of chemical precursors.

   The DEA has a long standing, proactive mandate to inspect its chemical registrants for
   regulatory and criminal violations on a regularly scheduled basis. List I chemical
   regulatory investigations are routine investigations initiated by the DEA to detect and
   identify compliance issues at their onset and thereby institute corrective measures or
   impose sanctions that deter and/or prohibit their reoccurrence.

   With a goal of one List I chemical regulatory investigation per non-supervisory Diversion
   Investigator (1 to 1 or 100 percent), this performance measure tracks the percentage of
   the List I chemical regulatory investigations initiated in recognition of the DEA’s proactive
   mandate to ensure compliance among its chemical registrants and thereby prevents the
   diversion of chemical precursors to illegal markets. In FY 2010, the DEA reported 149.7
   percent of its mandated List I chemical regulatory investigations initiated.

   Performance Measure: Number of Administrative/Criminal Sanctions Imposed on
   Registrants/Applicants

   FY 2001 Actual Performance                 573
   FY 2002 Actual Performance                 495
   FY 2003 Actual Performance                 548
   FY 2004 Actual Performance                 618
   FY 2005 Actual Performance                 628
   FY 2006 Actual Performance                 711
   FY 2007 Actual Performance                 743
   FY 2008 Actual Performance                 952
   FY 2009 Actual Performance                 864
   FY 2010 Target                             770
   FY 2010 Actual Performance                 687

Data Definition: Consists of administrative code 1 (surrender for cause), code 2 (revocation), code 9
(suspension), code D (denial), code R (restriction), Letters of Admonition, Administrative Hearings, and
Civil Fines. Registrants lose or forfeit the DEA Registration or are convicted of a drug felony.
Registrants are permanently denied access to controlled substances pending a reversal of
circumstances.
Data Collection and Storage: During the reporting quarter, the Diversion field offices change the
status of a registrant’s CSA2 master record to reflect any regulatory investigative actions that are being
conducted on the registrant. The reporting of the regulatory action by each field office is available on a
real-time basis through the reporting system within CSA2 as the investigative status changes. The
regulatory investigative actions that are collected in a real-time environment are as follows: letters of
admonition/MOU, civil fines, administrative hearings, orders to show cause, restricted records,
suspensions, surrenders for cause, revocations, and applications denied. The CSA2 enables the DEA
to maintain all of the historical and investigative information on the DEA registrants. It also serves as
the final repository for a majority of punitive (i.e., sanctions) actions levied against CSA violators.
Data Validation and Verification: The Diversion Investigator and the field office GS are tasked to
ensure that timely and accurate reporting is accomplished as the registrants investigative status
changes. Both GS and the DPM have the ability to view the report of ingoing and completed regulatory
investigation actions for their office/division at any time during the quarter or at the quarter’s end, since
the actions are in real-time.
Data Limitations: The enforceable longevity (duration) and the severity of the sanctions levied vary
among registrants types and jurisdictions. Because there is no adequate methodology for normalizing




                                                    - 24 -
these data we have to rely on Diversion’s data validation and verification procedures. Therefore, while
the DEA acknowledges this data limitation, it asserts that these data have “face” or intrinsic validity due
to the quality controls in place. Diversion affirms that it will continue to proactively test and evaluate its
validation and verification procedures in order to ensure the quality and reliability of its data.

   Discussion of FY 2010 Diversion Control Accomplishments:

   As the DEA continues to focus on more complex, trafficking organizations and the
   financial entities that support them, the number of administrative/criminal sanctions will
   increase. The DEA’s goal is to dismantle the organizations most responsible for the
   diversion of pharmaceuticals and precursor chemicals. In addition, collaborative
   enforcement efforts among Federal, State, and local law enforcement agencies and
   increases in Federal and State sponsored legislation that target and eliminate the
   methods previously exploited by diverters, have driven many of the most egregious
   elements out of the registrant populations. In FY 2010, the DEA reported 687
   administrative/criminal sanctions imposed on its registrants/applicants.

   ANALYSIS OF FINANCIAL STATEMENTS HIGHLIGHTS

   Financial Statements

   The DEA received an unqualified (“clean”) audit opinion from the independent public
   accounting firm of KPMG LLP on its FY 2010 financial statements provided on pages 47
   to 81. This is the twelfth consecutive year the DEA received a clean opinion. This
   unqualified audit opinion provides independent assurance to the public that the
   information presented in the DEA financial statements is fairly presented, in all material
   respects, in conformity with U.S. generally accepted accounting principles.

   The following sections provide a discussion and analysis of the financial statements and
   related information.

   Statement of Net Cost

   The Statement of Net Cost presents the DEA’s results of operations. The following table
   presents the total results of operations for the last four fiscal years.

                                 Net Cost of Operations (Dollars   in Millions)
                                  FY 2007          FY 2008             FY 2009         FY 2010
          Earned Revenue       $          540 $            575      $           593 $         678
          Gross Cost           $       (2,350) $        (2,514)     $        (2,739) $     (2,901)
          Total Net Cost       $       (1,810) $        (1,938)     $        (2,146) $     (2,223)

   The Statement of Net Cost compares fees earned to cost incurred during a specific
   period of time.

   Intragovernmental Revenues are predominately from reimbursable activity within the
   Department of Justice, in particular agreements for task force support with OCDETF.
   Intragovernmental Revenues increased by 18.1 percent from FY 2009 to FY 2010 from
   $410M to $484M, respectively.




                                                   - 25 -
Consolidated Balance Sheet

The Consolidated Balance Sheet shows that the DEA’s assets as of September 30,
2010 were $1,314M, a net decrease of $14M from FY 2009 balance of $1,328M.

Fund Balance with Treasury was $809M at September 30, 2010, a 3.3 percent increase
from the FY 2009 balance of $783M. Fund Balance with Treasury represents 61.6
percent of total assets.

Intragovernmental Accounts Receivable was $39M at September 30, 2010, a 46.3
percent decrease from the FY 2009 balance of $73M. Intragovernmental Accounts
Receivable represents 3.0 percent of total assets. Intragovernmental Accounts
Receivable for FY 2009 was high due to the conversion to UFMS.

General Property, Plant, and Equipment decreased 1.3 percent during FY 2010, from
$387M to $382M. General Property, Plant and Equipment represent 29.1 percent of
total assets.

Intragovernmental Liabilities were $97M at September 30, 2010, a 16.3 percent
decrease from the FY 2009 balance of $115M. Intragovernmental Liabilities represents
11.6 percent of total liabilities. The decrease in Intragovernmental Liabilities can be
attributed to a decrease in accounts payable with the Department of State.

Liabilities with the public were $736M at September 30, 2010, a 7.3 percent increase
from the FY 2009 balance of $687M. In FY2009 DEA prospectively changed the
methodology for estimating Deferred Revenue. It will take the full three year cycle to see
the final effect of the change. There was a $41M increase in Deferred Revenue for
FY2010 compared to an increase of $55M in FY2009. Liabilities with the public
represent 88.4 percent of total liabilities.

Statement of Budgetary Resources

Total budgetary resources for spending are primarily comprised of Congressional
authority appropriated for current year use, as well as fee collections. The following
table displays the DEA’s total budgetary resources over the last four years, with the
related percentage change over the previous year.


                             Budgetary Resources (Dollars in Millions)

                                    FY 2007           FY 2008            FY 2009         FY2010

Budgetary Resources
                                $         2,571   $         2,819   $        3,067   $       3,276
Percentage Change                         8.11%             9.62%            8.81%           6.81%


During FY 2010, the DEA’s total budgetary resources available for spending increased
6.8 percent over the amount available in FY 2009 due to enhancements in annual, no-
year, and reimbursable authorities and funds. The DEA continues to manage its
resources efficiently and effectively to support the mission of the agency.




                                          - 26 -
Finally, Spending Authority from Offsetting Collections increased from FY 2009 to FY
2010 from $467M to $499M, as of September 30, 2010. These increases are primarily
due to increased intradepartmental reimbursable activity with OCDETF and AFF.

ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE

Management Controls Program in the DEA

The DEA remains committed to ensuring that funding allocated to combat drug
trafficking is managed effectively and efficiently. The DEA continually evaluates its
operations to improve management practices and the accuracy and soundness of the
agency’s financial data. In accordance with OMB Circular A-123 requirements, a
comprehensive risk assessment analysis was performed on all 118 allowances, covering
nine significant business processes spanning 55 criteria. The DEA met all DOJ required
A-123 deadlines, reporting dates, and requirements. Based on the results of the risk
assessments, comprehensive on-site reviews were conducted at 13 high risk divisions,
laboratories, and headquarters offices.

DEA conducted comprehensive on-site reviews at 13 offices, at which time key
management controls were tested. The reviews included analyzing source
documentation, conducting employee interviews, performing transaction walk-throughs,
and ensuring compliance with the DEA’s Financial and Acquisition Management Policy
Manual (FAMPM), as well as applicable laws and regulations. The review process is
part of DEA’s management control program, which is designed to ensure that DEA’s
financial records, systems, and statements fairly present DEA’s financial position and
results of operation. At the conclusion of each review, the team briefed management on
the results of the testing and discussed areas of concern as well as corrective action
recommendations.

In support of DEA’s objective to train its managers and staff on the most current and up-
to-date financial management policies and procedures, the Financial Management
Division:

       1. 	 Conducted Unified Financial Management System (UFMS) Overview Training
            for Managers. Two classes (one foreign and one domestic) were conducted.
            Each class was one week in length. There were 22 students in the domestic
            class (March 2010) and ten students in the foreign class (June 2010). DEA
            managers with fiscal responsibilities received an overview of all major UFMS
            roles using the “Lifecycle of an Obligation” approach. Students were also
            instructed on the use of UFMS reports and tools for fiscal management.
       2. 	 Conducted three Undelivered Delivered Orders (UDOs) classes. Students
            received instruction on: the definitions and impact of commitments and
            obligations and the reconciliation of unliquidated commitments; step-by step
            instructions on the reconciliation and certifications of UDOs; the key roles of
            those with reconciliation responsibilities. A total of 60 students were trained.
       3. Conducted Temporary Duty (TDY) Travel Voucher Preparation Training for
            one Diversion Investigator class, six Basic Agent Training classes, and one
            Forensic Chemist class. A total of 287 students were trained.
       4. 	 Conducted 45 UFMS training classes at the DEA Headquarters and the St.
            Louis Division Office between February 2010 and July 2010. The training was




                                         - 27 -
            geared for new system users, but also served as a refresher course for
            current users. A total of 876 students were trained.
       5. 	 Conducted three imprest fund cashier training sessions during FY 2010. Two
            of the classes were taught in the traditional classroom setting and one class
            was taught as a Video Teleconferencing (VTC). A total of 51 students were
            trained.
       6. 	 Conducted financial management training for three Foreign Orientation
            Program (FOP) audiences during FY 2010. Topics included: Permanent
            Change of Station (PCS) travel voucher requirements; Relocation Income
            Tax Allowance; miscellaneous expense allowances; foreign payments; cash
            operations. A total of 203 students were trained.
       7. 	 Conducted Imprest Fund Audit training for one Group Supervisor Institute
            class. A total of 40 students were trained.

Quarterly Status Report. As part of Departmental reporting requirements, the DEA
prepares a Quarterly Status Report (QSR) that includes data on obligations, availability
of funds, personnel, performance targets and results, workload targets and results, and
progress on outstanding Federal Managers’ Financial Integrity Act (FMFIA) findings.
The QSR has resulted in the timely identification of problems and the resolution of
identified deficiencies. In addition, the QSR has helped the DEA to meet the
preparation, auditing, and submission deadlines for the annual financial statements.

Managerial Cost Accounting (MCA) System. The MCA provides the DEA with full cost
information that is used to evaluate and report on operations, facilitate decision-making,
and assess performance. Specifically, the MCA integrates DEA costs with DEA
performance to show how the DEA resources are allocated to achieve its mission.

Federal Managers’ Financial Integrity Act of 1982

The Federal Mangers’ Financial Integrity Act of 1982 (FMFIA) provides the statutory
basis for management’s responsibility for and assessment of internal accounting and
administrative controls. Such controls include program, operational, and administrative
areas, as well as accounting and financial management. FMFIA requires federal
agencies to establish controls that reasonable ensure that obligations and costs are in
compliance with applicable laws; funds, property, and other assets are safeguarded
against waste, loss, unauthorized use, or misappropriation; revenues and expenditures
are properly recorded and accounted for to maintain accountability over the assets.
FMFIA also requires agencies to assess and report annually on the internal controls that
protect the integrity of federal programs (FMFIA § 2) and whether financial management
systems conform to related requirements (FMFIA § 4).

Guidance for implementing FMFIA is provided through OMB Circular A-123. In addition
to requiring agencies to provide an assurance statement on the effectiveness of
programmatic internal controls and conformances with financial systems requirements,
the Circular requires agencies to provide an assurance statement on the effectiveness of
internal control over financial reporting. The Department requires components to provide
both assurance statements in order to prepare the agency assurance statement.

Management of the DEA is responsible for establishing and maintaining effective internal
control and financial management systems that meet the objectives of the FMFIA. For
FY 2010, DEA assessed its internal control over the effectiveness and efficiency of




                                          - 28 -
operations and compliance with applicable laws and regulations in accordance with
OMB Circular A-123, Management’s Responsibility for Internal Control, as required by
Section 2 of the FMFIA. Based on the results of this assessment, DEA can provide
reasonable assurance that its internal control over the effectiveness and efficiency of
operations and its compliance with applicable laws and regulations as of June 30, 2010,
was operating effectively, except for one reportable condition – DEA’s ability to obtain
reliable estimates of drug availability in the United States. DEA also assessed whether
its financial management systems conform to government-wide requirements. Based on
the results of this assessment, DEA can provide reasonable assurance that there are no
non-conformances that are required to be reported by Section 4 of the FMFIA.

Management of the DEA is also responsible for identifying, designing, operating,
maintaining, and monitoring the existence of an appropriate system of internal control
that enables DEA to report its financial information accurately to the Department and that
meets the requirements of OMB Circular A-123, Appendix A. In accordance with OMB
Circular A-123 Implementation Plan, the Department’s Senior Assessment Team
identified the business processes significant at the Departmental level and at the
component level, which comprises a significant share of those processes. As required
by the Department’s FY 2010 Guidance for Implementation of OMB Circular A-123, DEA
has documented the following significant business processes and tested key controls for
those processes. The results of testing identified no material weaknesses in DEA’s
internal control over financial reporting as of June 30, 2010; however, the results
identified three reportable conditions in the areas of procurement and sensitive
payments.

Federal Financial Management Improvement Act of 1996

The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to
improve federal financial and program managers’ accountability, provide better
information for decision-making, and improve the efficiency and effectiveness of federal
programs. FFMIA requires agencies to have financial managements systems that
substantially comply with federal financial management systems requirements,
applicable federal accounting standards, and the U.S. Standard General Ledger
(USSGL) at the transaction level. Furthermore, the Act requires independent auditors to
report on agency compliance with these three requirements in the financial statement
audit report. The Federal Information Security Management Act (FISMA) states that to
be substantially compliant with FFMIA, no significant deficiencies in information security
policies, procedures, or practices are permissible.

During FY 2010, the DEA assessed its financial management systems for compliance
with FFMIA and determined that they substantially comply with FFMIA. This
determination is based on the results of testing performed in accordance with OMB
Circular A-123, Appendix A. Consideration was also given to any issues identified
during the DEA’s financial statement audit.




                                          - 29 -
Performance Management Scorecards

The DEA developed scorecards based on OMB’s financial management indicators. The
indicators include percentage of electronic payments to vendors, number of invoices
paid on time, amount of late payment interest penalties, and travel and purchase card
delinquency rates. The scorecards are issued quarterly to Special Agents in Charge
(SACs) and Office Heads in 28 headquarters and division offices. The DEA makes on­
line reports available, which allows SACs and Office Heads to track their office’s
progress and take corrective action as necessary to improve performance. At the end of
FY 2010, 19 offices were “Green” on the Performance indicators. The percentage of
invoices paid on-time improved from 90.81% (September 2009) to 99.09% (September
2010), resulting in an overall score of “Green”.

For FY 2010, the DEA undertook an aggressive effort to work with offices to improve
financial performance further by correcting identified deficiencies, with the goal of a
“green” rating for all performance indicators. This effort led to the establishment of the
DEA’s Financial Improvement Team (FITeam) Program. This program is designed to
provide fiscal offices with the tools to achieve and sustain financial management
performance improvements. Core service offerings available from the FITeam include: 1)
fiscal process evaluation, improvement and implementation; 2) staffing and role
assignment evaluation so that workload is distributed appropriately; 3) monitoring of
financial transaction and other staff performance metrics. The FITeam also works with
field offices through critical targeted strategic management discussions.

Legal Compliance
Under the FMFIA, DEA is required to submit its FY 2010 Assurance Statement and Sub-
Certification as well as any subsequent updates to DOJ. On August 20, 2010, DEA
submitted its Assurance Statement and Sub-Certification for the 9-month period of
October 1, 2009 to June 30, 2010. DEA reported that its programs and administrative
activities and financial systems meet the objectives of Sections 2 and 4 of the FMFIA,
with three reportable conditions in the areas of procurement and sensitive payments.
The reportable conditions, however, do not affect DEA’s ability to perform its mission
and functions with efficiency and integrity.

On October 8, 2010, DEA submitted an Update to its FY 2010 Assurance Statement and
Sub-Certification to DOJ for the remaining three months of the fiscal year (July 1, 2010
to September 30, 2010). For the period, DEA reported that its internal control is
operating effectively, and that the agency is unaware of any additional reportable
conditions or material weaknesses in the design or operation of internal control over
financial reporting.

Improper Payments Information Act of 2002

The DEA has a robust compliance review process in place that is comprised of both
internal and external reviews that are conducted at regular intervals in support of OMB's
Circular No. A-136 and the Performance and Accountability Report. DEA’s financial
scorecard initiatives include monitoring payments daily and establishing a review
process of all payment documents. Payments that have been entered into UFMS with
duplicate payment information are analyzed and flagged based on prior payment
history. This oversight process makes it possible to identify and recoup improper




                                         - 30 -
payments in accordance with the Improper Payment Information Act and the Prompt
Payment Act. There are daily communications with all the DEA’s offices to ensure that
payment procedures are followed as outlined in the DEA’s FAMPM. Furthermore, the
DEA regularly provides written guidance and assistance to offices to ensure timely and
error- free payment processing.

POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS

Factors and Future Trends Affecting the DEA’s Goal Achievement

External Challenges: There are many external challenges that the DEA has to address
to meet its goals successfully. While these factors are beyond its control, the DEA can
provide tools and assistance to Headquarters and field personnel, as well as its federal,
State, local, and international partners, to minimize dangers. External challenges
include the following:

	 The smuggling, money remittance, and communications infrastructures utilized by
   international drug and chemical trafficking organizations will continue to provide an
   operational template that can be readily exploited by terrorist organizations.

	 Community Oriented Policing Services (COPS) funding directly impacts: (1) DEA’s
   ability to provide assistance to state and local law enforcement for the cleanup of
   seized methamphetamine laboratories; and (2) DEA’s ability to expand the
   Authorized Central Storage (ACS) Program to additional states.

	 Most international drug laws are inadequate to address counter-drug efforts.
   Furthermore, many countries lack effective legislative measures and the judicial
   means necessary to effectively thwart the production, diversion, transportation, or
   distribution of drugs in their countries, and the communications and financial support
   associated with the drug trade.

	 Source and transshipment (known in the shipping industry as cargo that goes from
   the point of origin to someplace other than the ultimate destination and is transferred
   from one conveyance to another for further transit) points such as Afghanistan and
   Africa mainland continue to affect the United States and the world.

	 Corruption can stymie the DEA’s efforts to affect international enforcement.
   Developing nations face an inordinate amount of problems (including indebtedness,
   insurgency, corruption, and underdevelopment) in conjunction with drug production
   and trafficking.

	 As the DEA’s law enforcement efforts improve, leaders of drug trafficking
   organizations are finding more sophisticated ways to insulate themselves from the
   criminal justice system. For example, they are using long and complex chains of
   delivery systems and state-of-the-art technology to keep their operations clandestine.

	 Newly emerging drug threats continue to affect the United States and the world.

	 Technological advancements in communications require vigilance and technical
   competency on the part of law enforcement. Internet, banking methods, and other




                                         - 31 -
   sophisticated uses of equipment, such as instant messaging (instant two-way
   communications using the Internet), BlackBerry devices, Hush Mail (free online
   encryption tool), and Voice over Internet Protocol (which provides push to talk, email,
   and picture capability to wireless phones), all present challenges to law enforcement.

	 The globalization of the social, technical, and economic environments of the United
   States and other nations creates new venues for drug production, transportation,
   diversion, and money laundering techniques.

	 Legalization could: 1) reduce the perception of the risks and costs of use; 2) increase
   availability and access to harmful drugs; 3) increase demand, abuse, and addiction;
   and 4) remove the social sanction against drug abuse that is reinforced by
   legislation. Legalization would increase risks and costs to individuals, families, and
   communities.

	 Changes in laws could affect the closed system of distribution and allow distribution
   of foreign-sourced controlled substances.

	 Continued growth in preference in the abuser population for legitimate controlled
   substances to replace or supplement illicit drugs.

	 The Internet has increasingly become a mechanism utilized by rogue Internet
   pharmacies to illegally dispense controlled substances.

Internal Challenges:

	 Addressing critical infrastructure requirements.

	 Ensuring operational agility. The DEA must be able to shift resources, personnel,
   and enforcement pressure in order to rapidly exploit trafficker vulnerabilities. To
   attack the flow of drugs, the DEA requires end game capabilities to operate on land,
   sea, or in the air - day or night. These capabilities rely heavily on the availability of
   aviation and travel resources to move the DEA personnel and foreign counterparts to
   the right location at the right moment.

	 Enhancing career development opportunities to ensure effective succession planning
   in the DEA’s leadership, since 55 percent of DEA’s Senior Executives were eligible
   for retirement at the end of FY 2010.

	 Complete and timely sharing of information and intelligence.

	 Strengthening existing partnerships and building new ones with federal, State, local,
   and international counterparts.




                                          - 32 -
LIMITATIONS OF THE FINANCIAL STATEMENTS

The financial statements have been prepared to report the financial position and results
of operations of the DEA, pursuant to the requirements of the 31 U.S.C. 3515(b).

While the statements have been prepared from the books and records of the DEA in
accordance with U.S. generally accepted accounting principles for federal entities and
the formats prescribed by OMB, the statements are in addition to the financial reports
used to monitor and control budgetary resources which are prepared from the same
books and records.

The statements should be read with the realization that they are for a component of the
U.S. Government, a sovereign entity.




                                         - 33 -
This page intentionally left blank.





               - 34 -
Reports of Independent Auditors




           - 35 -
This page intentionally left blank.





               - 36 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




                        Independent Auditors’ Report on Financial Statements


Inspector General
U.S. Department of Justice


Acting Administrator
Drug Enforcement Administration
U.S. Department of Justice


We have audited the accompanying consolidated balance sheets of the U.S. Department of Justice Drug
Enforcement Administration (DEA) as of September 30, 2010 and 2009, and the related consolidated
statements of net cost and changes in net position, and the combined statements of budgetary resources and
custodial activity (hereinafter referred to as “consolidated financial statements”) for the years then ended.
These consolidated financial statements are the responsibility of the DEA’s management. Our
responsibility is to express an opinion on these consolidated financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the DEA’s internal control over financial reporting. Accordingly, we express no such opinion. An audit
also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
consolidated financial statements, assessing the accounting principles used and significant estimates made
by management, as well as evaluating the overall consolidated financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Justice Drug Enforcement Administration as of
September 30, 2010 and 2009, and its net costs, changes in net position, budgetary resources, and custodial
activity for the years then ended in conformity with U.S. generally accepted accounting principles.

The information in the Management’s Discussion and Analysis and Required Supplementary Information is
not a required part of the consolidated financial statements, but is supplementary information required by
U.S. generally accepted accounting principles. We have applied certain limited procedures, which
consisted principally of inquiries of management regarding the methods of measurement and presentation
of this information. However, we did not audit this information and, accordingly, we express no opinion
on it.



                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.


                                                          - 37 -
Independent Auditors’ Report on Financial Statements
Page 2




In accordance with Government Auditing Standards, we have also issued our reports dated November 4,
2010, on our consideration of the DEA’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. Those reports are an integral part of an audit performed
in accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.




November 4, 2010




                                              - 38 -
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control over Financial Reporting


Inspector General
U.S. Department of Justice


Acting Administrator
Drug Enforcement Administration
U.S. Department of Justice


We have audited the consolidated balance sheets of the U.S. Department of Justice Drug Enforcement
Administration (DEA) as of September 30, 2010 and 2009, and the related consolidated statements of net
cost and changes in net position, and the combined statements of budgetary resources and custodial activity
(hereinafter referred to as “consolidated financial statements”) for the years then ended, and have issued
our report thereon dated November 4, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and
OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

The management of the DEA is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2010 audit, we considered the DEA’s internal control over
financial reporting by obtaining an understanding of the DEA’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the consolidated
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the DEA’s
internal control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
the DEA’s internal control over financial reporting. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2010 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.


                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.


                                                           - 39 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 2




The Exhibit presents the status of the prior year’s finding and recommendation.

This report is intended solely for the information and use of the DEA’s management, the U.S. Department
of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 4, 2010




                                              - 40 -
                                                                                                       EXHIBIT


                STATUS OF PRIOR YEAR’S FINDING AND RECOMMENDATION

As required by Government Auditing Standards issued by the Comptroller General of the United
States, and by OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements,
as amended, we have reviewed the status of the prior year’s finding and recommendation. The
following table provides our assessment of the progress the Drug Enforcement Administration
has made in correcting the previously identified significant deficiency. We also provide the
Office of the Inspector General report number where the deficiency was reported, our
recommendation for improvement, and the status of the recommendation as of the end of fiscal
year 2010.


              Significant
   Report                                             Recommendation                                Status
               Deficiency
 Annual     Improvements              Recommendation No. 1: Perform a review                     Completed*
 Financial  are Needed to             and evaluation of the quarterly certification
 Statement Strengthen the             process. Such a review and evaluation should
 Fiscal     Financial                 consider reemphasizing the certifying
 Year 2009, Management                officer’s procedures over conducting the
 Report No. Controls to               daily and quarterly certification process and
 10-14      Ensure the                ensure the implementation of controls that
            Timely                    will lead to increased accountability and
            Deobligation of           ensure compliance with DEA procedures.
            Funds that are
            No Longer
            Needed




*Sufficient progress has been made in addressing this finding and the related recommendation such that the
remaining risk of misstatement no longer merits the attention by those charged with governance. Therefore, the
condition has been downgraded to a deficiency in internal control.




                                                     - 41 -
This page intentionally left blank.





               - 42 -
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of Justice


Acting Administrator
Drug Enforcement Administration
U.S. Department of Justice


We have audited the consolidated balance sheets of the U.S. Department of Justice Drug Enforcement
Administration (DEA) as of September 30, 2010 and 2009, and the related consolidated statements of net
cost and changes in net position, and the combined statements of budgetary resources and custodial activity
(hereinafter referred to as “consolidated financial statements”) for the years then ended, and have issued
our report thereon dated November 4, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and
OMB Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

The management of the DEA is responsible for complying with laws, regulations, contracts, and grant
agreements applicable to the DEA. As part of obtaining reasonable assurance about whether the DEA’s
fiscal year 2010 consolidated financial statements are free of material misstatement, we performed tests of
the DEA’s compliance with certain provisions of laws, regulations, contracts, and grant agreements,
noncompliance with which could have a direct and material effect on the determination of the consolidated
financial statement amounts, and certain provisions of other laws and regulations specified in OMB
Bulletin No. 07-04, including the provisions referred to in Section 803(a) of the Federal Financial
Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations, contracts,
and grant agreements applicable to the DEA. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, exclusive of
those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which the DEA’s financial management
systems did not substantially comply with the (1) Federal financial management system requirements,
(2) applicable Federal accounting standards, and (3) application of the United States Government Standard
General Ledger at the transaction level.


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.


                                                         - 43 -
Independent Auditors’ Report on Compliance and Other Matters
Page 2




This report is intended solely for the information and use of the DEA’s management, the U.S. Department
of Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 4, 2010




                                            - 44 -
          Principal Financial Statements
                and Related Notes

See Independent Auditors’ Report on Financial Statements




                       - 45 -
                                              U.S. Department of Justice

                                          Drug Enforcement Administration

                                            Consolidated Balance Sheets

                                          As of September 30, 2010 and 2009




Dollars in Thousands                                                           2010                2009

ASSETS (Note 2)
     Intragovernmental
         Fund Balance with U.S. Treasury (Note 3)                         $      809,035       $    783,421
         Accounts Receivable, Net (Note 5)                                        39,117             72,897
         Other Assets (Note 9)                                                    51,090             55,295
     Total Intragovernmental                                                     899,242            911,613

       Cash and Monetary Assets (Note 4)                                           13,407             10,089
       Accounts Receivable, Net (Note 5)                                            2,325              2,543
       Inventory and Related Property, Net (Note 6)                                 6,770              6,862
       General Property, Plant and Equipment, Net (Note 8)                        382,137            387,325
       Advances and Prepayments                                                     9,929              9,241
Total Assets                                                              $     1,313,810      $   1,327,673

LIABILITIES (Note 10)
      Intragovernmental
          Accounts Payable                                                $           42,007   $     65,505
          Accrued Federal Employees' Compensation Act Liabilities                     26,651         25,594
          Custodial Liabilities (Note 19)                                              1,584          2,310
          Other Liabilities (Note 13)                                                 26,273         21,888
      Total Intragovernmental                                                         96,515        115,297

       Accounts Payable                                                           117,280           113,778
       Actuarial Federal Employees' Compensation Act Liabilities                  144,858           139,308
       Accrued Payroll and Benefits                                                59,032            52,574
       Accrued Annual and Compensatory Leave Liabilities                           98,608            93,474
       Deferred Revenue                                                           311,164           269,840
       Seized Cash and Monetary Instruments (Note 12)                                 447               575
       Contingent Liabilities (Note 14)                                             4,928            16,995
       Other Liabilities (Note 13)                                                     92                67
Total Liabilities                                                         $       832,924      $    801,908

NET POSITION
       Unexpended Appropriations - All Other Funds                        $       559,167      $     540,670
       Cumulative Results of Operations - Earmarked Funds (Note 15)              (159,279)          (100,558)
       Cumulative Results of Operations - All Other Funds                          80,998             85,653
Total Net Position                                                        $       480,886      $     525,765

Total Liabilities and Net Position                                        $     1,313,810      $   1,327,673




    ___________________________________________________________________________________________
                    The accompanying notes are an integral part of these financial statements.




                                                        - 46 -
                                                                   U.S. Department of Justice

                                                               Drug Enforcement Administration

                                                             Consolidated Statements of Net Cost

                                                   For the Fiscal Years Ended September 30, 2010 and 2009





         Dollars in Thousands

                                            Gross Costs                                       Less: Earned Revenues                           Net Cost of
                           Intra-               With the                               Intra-        With the                                 Operations
            FY          governmental             Public                Total        governmental      Public                Total              (Note 16)

Goal 1     2010     $             24,424    $           75,891    $      100,315    $         632     $            -    $           632   $            99,683
           2009     $             13,414    $           53,144    $       66,558    $         501     $           35    $           536   $            66,022

Goal 2     2010                  836,028             1,965,174         2,801,202          482,951             194,719        677,670                2,123,532
           2009                  817,575             1,855,073         2,672,648          409,000             183,747        592,747                2,079,901

Total      2010     $            860,452    $        2,041,065    $    2,901,517    $     483,583     $       194,719   $    678,302      $         2,223,215
           2009     $            830,989    $        1,908,217    $    2,739,206    $     409,501     $       183,782   $    593,283      $         2,145,923


Goal 1   Prevent Terrorism and Promote the Nation's Security
Goal 2   Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People




                          _________________________________________________________________________________________
                                         The accompanying notes are an integral part of these financial statements.




                                                                           - 47 -
                                         U.S. Department of Justice

                                     Drug Enforcement Administration

                             Consolidated Statements of Changes in Net Position 

                               For the Fiscal Year Ended September 30, 2010 



Dollars in Thousands

                                                                                    2010
                                                              Earmarked          All Other
                                                                Funds             Funds             Total

Unexpended Appropriations
   Beginning Balances                                        $          -    $      540,670    $     540,670

   Budgetary Financing Sources
      Appropriations Received                                           -         2,053,353         2,053,353
      Appropriations Transferred-In/Out                                 -            39,756            39,756
      Appropriations Used                                               -        (2,074,612)       (2,074,612)

   Total Budgetary Financing Sources                                    -            18,497           18,497

   Unexpended Appropriations                                 $          -    $      559,167    $     559,167

Cumulative Results of Operations
   Beginning Balances                                        $   (100,558)   $       85,653    $     (14,905)

   Budgetary Financing Sources
      Appropriations Used                                               -         2,074,612        2,074,612

   Other Financing Sources
      Transfers-In/Out Without Reimbursement                          86              9,432            9,518
      Imputed Financing from Costs Absorbed
          by Others (Note 17)                                       6,969            68,740           75,709

   Total Financing Sources                                          7,055         2,152,784        2,159,839

   Net Cost of Operations                                         (65,776)       (2,157,439)       (2,223,215)

   Net Change                                                     (58,721)           (4,655)         (63,376)

   Cumulative Results of Operations                          $   (159,279)   $       80,998    $     (78,281)

Net Position                                                 $   (159,279)   $      640,165    $     480,886




  ___________________________________________________________________________________________
                 The accompanying notes are an integral part of these financial statements.


                                                  - 48 -
                                     U.S. Department of Justice

                                 Drug Enforcement Administration

                         Consolidated Statements of Changes in Net Position 

                           For the Fiscal Year Ended September 30, 2009 



Dollars in Thousands

                                                                                2009
                                                          Earmarked           All Other
                                                            Funds              Funds             Total

Unexpended Appropriations
   Beginning Balances                                     $           -   $      475,267    $     475,267

   Budgetary Financing Sources
       Appropriations Received                                        -        1,959,084         1,959,084
       Appropriations Transferred-In/Out                              -          158,467           158,467
       Appropriations Used                                            -       (2,052,148)       (2,052,148)

   Total Budgetary Financing Sources                                  -           65,403           65,403

   Unexpended Appropriations                              $           -   $      540,670    $     540,670

Cumulative Results of Operations
   Beginning Balances                                     $    (69,174)   $       69,323    $         149

   Budgetary Financing Sources
       Appropriations Used                                            -        2,052,148        2,052,148

   Other Financing Sources
        Transfers-In/Out Without Reimbursement                    180             12,143           12,323
        Imputed Financing from Costs Absorbed
            by Others (Note 17)                                  5,953            60,445           66,398

   Total Financing Sources                                       6,133         2,124,736        2,130,869

   Net Cost of Operations                                      (37,517)       (2,108,406)       (2,145,923)

   Net Change                                                  (31,384)           16,330          (15,054)

   Cumulative Results of Operations                       $   (100,558)   $       85,653    $     (14,905)

Net Position                                              $   (100,558)   $      626,323    $     525,765




___________________________________________________________________________________________
                The accompanying notes are an integral part of these financial statements.


                                                 - 49 -
                                         U.S. Department of Justice

                                     Drug Enforcement Administration

                              Combined Statements of Budgetary Resources 

                         For the Fiscal Years Ended September 30, 2010 and 2009 


Dollars in Thousands                                        2010             2009

Budgetary Resources


 Unobligated Balance, Brought Forward, October 1       $     323,879     $    161,745


 Recoveries of Prior Year Unpaid Obligations                 129,127           86,345

 Budget Authority
   Appropriations Received                                  2,284,189        2,193,596
   Spending Authority from Offsetting Collections
      Earned
          Collected                                          537,802          385,364
          Change in Receivables from Federal Sources         (33,532)          39,199
      Change in Unfilled Customer Orders
          Advance Received                                         25               (9)
          Without Advance from Federal Sources                 (5,407)          42,199
 Subtotal Budget Authority                                  2,783,077        2,660,349

 Nonexpenditure Transfers, Net, Actual                         39,756          158,467
Total Budgetary Resources (Note 18)                    $    3,275,839    $   3,066,906




___________________________________________________________________________________________
                The accompanying notes are an integral part of these financial statements.


                                                   - 50 -
                                                U.S. Department of Justice
                                            Drug Enforcement Administration
                               Combined Statements of Budgetary Resources (continued)
                                For the Fiscal Years Ended September 30, 2010 and 2009


Dollars in Thousands                                                                2010               2009


Status of Budgetary Resources
 Obligations Incurred
   Direct                                                                      $    2,532,674      $   2,304,512
   Reimbursable                                                                       519,774            438,515
       Total Obligations Incurred (Note 18)                                         3,052,448          2,743,027
 Unobligated Balance - Available
   Apportioned                                                                        195,008            313,155
 Unobligated Balance not Available                                                     28,383             10,724
Total Status of Budgetary Resources                                            $    3,275,839      $   3,066,906


Change in Obligated Balance
 Obligated Balance, Net - Brought Forward, October 1
   Unpaid Obligations                                                          $      687,246      $     702,505
   Less: Uncollected Customer Payments from Federal Sources                           220,915            139,516
        Total Unpaid Obligated Balance, Net - Brought Forward, October 1              466,331            562,989
 Obligations Incurred, Net                                                          3,052,448          2,743,027
 Less: Gross Outlays                                                                2,833,524          2,671,941
 Less: Recoveries of Prior Year Unpaid Obligations, Actual                            129,127             86,345
 Change in Uncollected Customer Payments from Federal Sources                          38,939            (81,399)

 Obligated Balance, Net - End of Period
  Unpaid Obligations                                                                     777,043        687,246
  Less: Uncollected Customer Payments from Federal Sources                               181,976        220,915
      Total Unpaid Obligated Balance, Net - End of Period                      $         595,067   $    466,331


Net Outlays
 Gross Outlays                                                                 $    2,833,524      $   2,671,941
 Less: Offsetting Collections                                                         537,827            385,354
 Less: Distributed Offsetting Receipts (Note 18)                                      231,967            235,998

Total Net Outlays (Note 18)                                                    $    2,063,730      $   2,050,589




      ___________________________________________________________________________________________
                      The accompanying notes are an integral part of these financial statements.


                                                       - 51 -
                                        U.S. Department of Justice

                                    Drug Enforcement Administration

                               Combined Statements of Custodial Activity

                        For the Fiscal Years Ended September 30, 2010 and 2009




Dollars in Thousands                                              2010            2009

Revenue Activity

 Sources of Cash Collections
    Fees and Licenses                                         $   15,000     $    15,000
    Fines, Penalties and Restitution Payments - Civil              5,963          44,961
        Total Cash Collections                                    20,963          59,961

 Accrual Adjustments                                                 211             211

 Total Custodial Revenue                                          21,174          60,172

Disposition of Collections
  Transferred to Federal Agencies
      Department of the Treasury                                (20,891)       (59,961)
  (Increase)/Decrease in Amounts Yet to Be Transferred             (283)          (211)
Net Custodial Activity (Note 19)                              $       -      $       -




 ________________________________________________________________________________________
               The accompanying notes are an integral part of these financial statements.



                                                  - 52 -
                              U.S. Department of Justice 

                           Drug Enforcement Administration 

                               Notes to the Financial Statements

                               (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies

      A. Reporting Entity

      Drug Enforcement Administration (DEA or the agency), a bureau within the Department of
      Justice (DOJ or the department), is the lead agency responsible for the development of
      overall federal drug enforcement strategy, programs, planning, and evaluations. The DEA
      was created on July 1, 1973, as a result of the Presidential Reorganization Plan No. 2 of
      1973. The DEA’s mission is to enforce the United States’ controlled substances laws and
      regulations and to bring to justice individuals involved in the growing, manufacturing, or
      distribution of controlled substances appearing in or destined for illicit traffic in the U.S.
      The DEA is also responsible for recommending and supporting non-enforcement programs
      aimed at reducing the availability of illicit controlled substances in domestic and
      international markets.

      B. Basis of Presentation

      The accompanying financial statements were prepared to report the DEA’s financial
      position, net cost of operations, changes in net position, budgetary resources, and custodial
      activity as of and for the years ended September 30, 2010 and 2009. These financial
      statements include the following funds which are under the DEA’s control: appropriated
      annual, multi-year, and no-year Salary and Expense; appropriated no-year Construction;
      Diversion Control offsetting authority; and the Violent Crime Reduction Trust Fund.
      These financial statements represent the financial results of these funds. All DEA activities
      are conducted under Office of Management and Budget’s (OMB) Budget Functional
      Classification code 750 – Administration of Justice.

      These financial statements have been prepared from the books and records of the DEA in
      accordance with U.S. generally accepted accounting principles issued by the Federal
      Accounting Standards Advisory Board (FASAB) and presentation guidelines in the OMB
      Circular A-136, Financial Reporting Requirements. These financial statements are
      different from the financial reports prepared pursuant to OMB directives which are used to
      monitor and control the use of the DEA’s budgetary resources. To ensure that the DEA’s
      financial statements are meaningful at the entity level and to enhance reporting consistency
      within the Department, Other Assets and Other Liabilities as defined by OMB Circular A-
      136 have been disaggregated on the balance sheet.




                                             - 53 -
                             U.S. Department of Justice 

                          Drug Enforcement Administration 

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      In OMB Circular A-136 Advances and Prepayments are considered Other Assets, and
      Accrued Federal Employees’ Compensation Act Liabilities (FECA), Custodial Liabilities,
      Accrued Payroll and Benefits, Contingent Liabilities, Accrued Annual and Compensatory
      Leave Liabilities, Deferred Revenue, and Seized Cash and Monetary Instruments are
      considered Other Liabilities.

      C. Basis of Consolidation

     The consolidated/combined financial statements include the accounts of the DEA. All
     significant proprietary intra-entity transactions and balances have been eliminated in
     consolidation. The Statements of Budgetary Resources and Statements of Custodial
     Activity are combined statements for FYs 2010 and 2009, and as such, intra-entity
     transactions have not been eliminated. The consolidated financial statements do not
     include centrally administered assets and liabilities of the Federal Government as a whole,
     such as General Services Administration (GSA) owned property and equipment and
     borrowings from the public by the U.S. Treasury, which may in part be attributable to the
     DEA.

     D. Basis of Accounting

     Transactions are recorded on the accrual and budgetary bases of accounting. Under the
     accrual basis, revenues are recorded when earned and expenses are recorded when
     incurred, regardless of when cash is exchanged. Under the budgetary basis, however,
     funds availability is recorded based upon legal considerations and constraints. As a result,
     certain line items on the proprietary financial statements may not equal similar line items
     on the budgetary financial statements.

     E. Non-Entity Assets

     Included in the assets reported in the accompanying balance sheets are non-entity assets.
     Non-entity assets are assets held by the DEA but are not available for use by the DEA. All
     of the DEA’s non-entity assets are with the public and consist primarily of seized monetary
     assets, cash generated from Attorney General Exempt Operations, and cash generated from
     Trafficker Directed Funds Activities. These assets cannot be used to satisfy the DEA’s
     obligations.




                                            - 54 -
                              U.S. Department of Justice 

                           Drug Enforcement Administration 

                               Notes to the Financial Statements

                               (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      F. Fund Balance with U.S. Treasury and Cash

      Generally, the U. S. Treasury processes cash receipts and disbursements. The DEA’s Fund
      Balance with the U.S. Treasury consists of appropriated funds that are available to pay
      current liabilities and finance authorized commitments. The DEA does not have disbursing
      authority. The DEA maintains a small amount of cash in commercial banks to facilitate the
      replenishment of the Agency’s imprest funds.

      G. Accounts Receivable

      Accounts receivable result from amounts due from federal agencies, public organizations,
      or individuals. Receivables due from federal agencies consist of reimbursable agreements
      for services provided by the DEA and are considered to be fully collectible.

      Receivables due from public organizations or individuals consist of refunds, restitutions,
      licensing fees, and civil monetary penalties. An allowance for uncollectible accounts is
      established for these receivables when it is more likely than not the receivables will not be
      totally collected. The allowance is measured based on analysis of both individual accounts
      and a group of accounts taken as a whole.

      H. Inventory and Related Property

      The DEA maintains an inventory of aviation parts and supplies in support of its aviation
      operations. The aviation inventory is valued at historical cost. Repairable parts are broken
      or expended parts that have been removed from DEA aircraft. Repairable parts are
      inoperable and may eventually be repaired, overhauled, discarded, or traded for “core”
      value against a new or rebuilt part. Repairable parts are valued at zero dollars.
                               U.S. Department of Justice 

                            Drug Enforcement Administration 

                               Notes to the Financial Statements

                               (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      I. General Property, Plant and Equipment

      In accordance with Statement of Federal Financial Accounting Standards (SFFAS) No. 6,
      Accounting for Property, Plant, and Equipment and No. 10, Accounting for Internal Use
      Software, the DEA reports assets at historical cost or their estimated fair value if acquired
      through means other than purchase. The DEA capitalizes administrative and technical
      investigative equipment, vehicles, boats, and capital leases that have a total cost of $25 or
      greater. Buildings, construction-in-progress (CIP), leasehold improvements, and aircraft
      are capitalized when their total cost is $100 or greater. Land is capitalized regardless of the
      acquisition cost. Betterments that extend the useful life of an asset are also capitalized.
      The cost of minor enhancements resulting from ongoing systems maintenance is expensed
      in the period incurred. Also, the purchase of enhanced versions of software for a nominal
      charge are properly expensed in the period incurred. Internal use software is capitalized
      when the development cost or purchase price exceeds $500. Repairs and maintenance
      costs are expensed. Capitalized assets (other than land and CIP) are depreciated or
      amortized over useful lives ranging from 5 to 50 years using a straight-line method.

      J. Advances and Prepayments

      The DEA’s advances and prepayments consist of funds disbursed to other federal agencies
      in advance of receipt of goods or services, advances to state and local entities that
      participate in the Domestic Cannabis Eradication and Suppression Program, and travel
      advances issued to federal employees. Travel advances are limited to meals and incidental
      expenses incurred by federal employees during official travel. Advances and prepayments
      are recorded as an asset and are expensed when the related goods or services are received.
      Advances and prepayments involving other Federal agencies are classified as Other Assets
      on the balance sheet (Note 9).
                              U.S. Department of Justice 

                           Drug Enforcement Administration 

                               Notes to the Financial Statements

                               (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      K. Forfeited and Seized Property

      The DEA routinely seizes property as part of its law enforcement activities. All property
      seized for forfeiture is reported by the DOJ’s Assets Forfeiture Fund, including property
      that has evidentiary value. As required by SFFAS No. 3, Accounting for Inventory and
      Related Property, seized monetary assets held for evidence by the DEA are recorded as
      assets with an offsetting liability. Non-monetary assets held for evidence are disclosed in a
      footnote to the financial statements at appraised or market value with the exception of
      firearms which are disclosed according to the number of firearms added, disposed, and on-
      hand. Firearms are held until they are no longer needed as evidence and then destroyed.
      DEA uses a one thousand dollar reporting threshold for seized property. Illegal drugs
      seized and held as evidence by the DEA have no legal value and are reported in the
      footnotes by quantity only. The analysis of drug evidence is presented in accordance with
      Federal Financial Accounting and Auditing Technical Release No. 4, Reporting on Non-
      Valued Seized and Forfeited Property. The DEA discloses drug evidence that is
      categorized in Schedules 1 through 5 of the Controlled Substances Act. Drugs are
      destroyed when they are no longer needed for evidence.

      L. Liabilities

      The DEA’s liabilities consist of funds or other resources that are likely to be paid by the
      Agency as the result of a transaction or event that has already occurred. However, no
      liability can be paid absent proper budget authority. The federal government can accept
      liabilities for the DEA, when the Agency contractually acts in the sovereign capacity of the
      federal government. Accrued payroll and benefits are accrued based on the number of days
      in a pay period earned but not paid to employees at the end of the quarter.

      Intragovernmental liabilities covered by budgetary resources consist of expenses incurred
      by other Federal agencies for goods or services performed by those agencies on behalf of
      DEA where the DEA has not yet paid them. These expenses are funded by the DEA under
      reimbursable agreements.
                               U.S. Department of Justice 

                            Drug Enforcement Administration 

                               Notes to the Financial Statements

                               (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      M. Contingencies and Commitments

      The DEA is party to various administrative proceedings, legal actions, and claims. The
      balance sheet includes an estimated liability for those legal actions where management and
      the Chief Counsel consider adverse decisions “probable” and amounts are reasonably
      estimable. Legal actions where management and the Chief Counsel consider adverse
      decisions “probable” or “reasonably possible” and the amounts are reasonably estimable
      are disclosed in Note 14, Contingencies and Commitments. However, there are cases
      where amounts have not been accrued or disclosed because the amounts of the potential
      loss cannot be estimated or the likelihood of an unfavorable outcome is “remote”.
      Reasonably possible losses are not recognized in the balance sheet. An unfunded liability
      is established when claims are determined to be probable and measurable. Settlements less
      than two thousand five hundred dollars are paid from the DEA’s appropriations. The U.S.
      Treasury Judgment Fund may pay, on behalf of the DEA, amounts in excess of two
      thousand five hundred dollars.

      N. Annual, Sick, and Other Leave

      Annual and compensatory leave earned by the DEA employees but not yet used is recorded
      as an accrued liability. Each year, the liability is adjusted to reflect current pay rates. Any
      portion of the accrued leave for which funding is not currently available is recorded as an
      unfunded liability. Sick leave and other types of non-vested leave are expensed as used.

      O. Interest on Late Payments

      The Prompt Payment Act requires federal agencies to pay invoices owed to vendors for the
      purchase of goods or services within 30 days after the receipt of a proper invoice or after
      the acceptance of the goods or service, whichever is later. Payments made after this date
      must include an interest penalty.




                                             - 58 -
                             U.S. Department of Justice 

                          Drug Enforcement Administration 

                             Notes to the Financial Statements

                             (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      P. Retirement Plans

      On January 1, 1984, the Federal Employees’ Retirement System (FERS) became effective
      pursuant to the Federal Employees’ Retirement System Act. Employees hired after
      December 31, 1983 are automatically covered by FERS and Social Security.

      Employees hired prior to January 1, 1984 can elect to join FERS and Social Security or
      remain in the Civil Service Retirement System (CSRS). For employees covered by CSRS
      the DEA contributes 7.0% of the employees’ gross pay for regular and 7.5% for law
      enforcement officers’ retirement. For employees covered by FERS, the DEA contributes
      11.2% of employees’ gross pay for regular and 24.9% for law enforcement officers’
      retirement. A primary feature of FERS is the Federal Thrift Savings Plan to which the
      DEA automatically contributes 1.0% of an employee’s pay and matches the employee’s
      contribution up to an additional 4.0%. The DEA also contributes the matching share of
      Social Security for FERS participants.

      The accompanying financial statements report expenses incurred by the DEA for required
      contributions made to retirement plans administered by the Office of Personnel
      Management (OPM). In accordance with SFFAS No. 5, Accounting for Liabilities of the
      Federal Government, the DEA recognizes an additional expense for Pension and Other
      Retirement Benefits incurred but not already covered by employee and DEA contributions.
      This expense will ultimately be paid by the OPM and is offset in the accompanying
      financial statements with an imputed financing source.
                              U.S. Department of Justice 

                           Drug Enforcement Administration 

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      Q. Federal Employee Compensation Benefits

     The FECA authorizes income and medical cost protection to covered federal civilian
     employees who are injured on the job or who have incurred a work-related occupational
     disease, and to beneficiaries of deceased employees whose death is attributable to a job-
     related injury or occupational disease. FECA benefit claims for the DEA employees are
     initially paid by the Department of Labor (DOL) and subsequently reimbursed by the DEA.

     The DEA’s FECA liability consists of two components: (1) unpaid bills and (2) an
     estimated future cost. Unpaid bills are claims paid by the DOL but not yet billed to or paid
     by the DEA. Estimated future costs are determined by applying actuarial procedures to
     anticipated future costs. The DOL is responsible for calculating the actuarial FECA
     liability for future compensation benefits for all federal agencies. These benefits include
     the liability for death, disability, medical, and miscellaneous costs for approved
     compensation cases. This liability is determined using a paid-losses extrapolation method
     calculated over a 37-year period. This method utilizes historical benefit payment patterns
     that relate to a specific period.

      Projected annual benefit payments are discounted to present value. The resulting liability
      is then distributed by DOL to each benefiting agency. The DOJ calculates and distributes
      each bureau’s respective portion of the total DOJ actuarial liability.

     The actuarial FECA liability is recorded for financial reporting purposes only and is an
     extended estimate of future costs which will not be obligated against budgetary resources
     until the year in which the cost is actually paid by the DEA.

     R. Intragovernmental Activity

     Intragovernmental costs and exchange revenue represent transactions made between two
     reporting entities within the federal government. Costs and earned revenues with the
     public represent exchange transactions made between the reporting entity and a non-federal
     entity. The classification of revenue or cost as “intragovernmental” or “with the public” is
     defined on a transaction-by-transaction basis. The purpose of this classification is to enable
     the federal government to prepare consolidated financial statements, not to match public
     and intragovernmental revenue with the costs incurred to produce public and
     intragovernmental revenue.
                              U.S. Department of Justice 

                           Drug Enforcement Administration 

                               Notes to the Financial Statements

                               (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      S. Revenues and Other Financing Sources

      The DEA’s largest funding source is from congressional appropriations, which are used to
      support DEA’s operations. The DEA also receives reimbursable funding from other
      federal agencies for services performed by the DEA on their behalf. Annual, multi-year,
      and no-year appropriations are used within statutory limitations for operating and capital
      expenditures. Appropriations are recognized as a financing source when related program
      or administrative expenses are incurred.

      The DEA collects exchange revenue from several sources. The largest exchange revenue
      source for the DEA relates to the Diversion Control Program authorized by the Controlled
      Substances Act. This Act requires physicians, pharmacists, and chemical companies to be
      licensed with the DEA to manufacture and distribute certain controlled substances. The
      DEA charges a licensing fee for this service. Each fiscal year, federal statutes require $15
      million of the total fees collected for the Diversion Control Program to be transferred to the
      U.S. Treasury. Diversion Control Program license fees received from public registrants are
      renewed annually or triennially. The unearned portion of the fees is recorded as deferred
      revenue in the accompanying financial statements.

      Certain federal agencies pay expenses on behalf of the DEA where repayment is not
      required. These expenses are considered imputed financing and the DEA records them as
      both a financing source and expense.

      In addition, Agency personnel participate with state and local government organizations in
      the DEA mission related law enforcement task forces. State and local governments look to
      the DEA for expertise in intelligence and investigative support. The DEA Agents also
      participate in joint investigations with a variety of other federal organizations such as the
      FBI, Assets Forfeiture Fund, Office of National Drug Control Policy, and the Organized
      Crime Drug Enforcement Task Force. Prices for the DEA participation in federal, state,
      and local law enforcement activities are established within the applicable reimbursable
      agreement.
                             U.S. Department of Justice 

                          Drug Enforcement Administration 

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

     The table below summarizes the type of revenue sources and the typical pricing policy for
     exchange revenue:

                     Revenue Source	                               Pricing Policy

      Controlled Substances Act Licensing                          Full Cost, OMB A-25
      State and Local Task Force Participation                     Direct Cost Only
      Joint Intragovernmental Agency Investigations                Direct Cost Only
      Assets Forfeiture Fund                                       Direct Cost Only

     T.	 Earmarked Funds

     The Statement of Federal Financial Accounting Standards No. 27, Identifying and
     Reporting Earmarked Funds, defines ‘earmarked funds’ as being financed by specifically
     identified revenues, often supplemented by other financing sources, which remain available
     over time. These specifically identified revenues and other financing sources are required
     by statute to be used for designated activities, benefits, or purposes, and must be accounted
     for separately from the Government’s general revenues. The three required criteria for an
     earmarked fund are:

     1.	 A statute committing the Federal Government to use specifically identified revenues
         and other financing sources only for designated activities, benefits or purposes;

     2.	 Explicit authority for the earmarked fund to retain revenues and other financing sources
         not used in the current period for future use to finance the designated activities,
         benefits, or purposes; and

     3.	 A requirement to account for and report on the receipt, use, and retention of the
         revenues and other financing sources that distinguishes the earmarked fund from the
         Government’s general revenues.

     The Diversion Control Fee account is the only DEA fund meeting these criteria for
     reporting purposes.
                              U.S. Department of Justice 

                           Drug Enforcement Administration 

                               Notes to the Financial Statements

                               (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 1. Summary of Significant Accounting Policies (continued)

      U. Tax Exempt Status

      As an agency of the Federal Government, DEA is exempt from all income taxes imposed
      by any governing body whether it is a Federal, state, commonwealth, local, or foreign
      government.

      V. Use of Estimates

     The preparation of financial statements requires management to make certain estimates and
     assumptions that affect the reported amounts of assets and liabilities and the reported
     amounts of revenue and expenses during the reporting period. Actual results could differ
     from those estimates.

     W. Reclassifications

     The FY 2009 financial statements were reclassified to conform to the FY 2010
     Departmental financial statement presentation requirements. The reclassifications had no
     material effect on total assets, liabilities, net position, change in net position or budgetary
     resources as previously reported.

     X. Subsequent Events

     Subsequent events and transactions occurring after September 30, 2010 through the date of
     the auditors’ opinion have been evaluated for potential recognition or disclosure in the
     financial statements. The date of the auditors’ opinion also represents the date that the
     financial statements were available to be issued.

      In a Civil Settlement Agreement dated October 13, 2010, CVS Pharmacy, Inc. agreed to
      pay $75 million in civil penalties as a result of unlawful distribution and sales of
      pseudoephedrine. On October 20, 2010 DEA received the collection amount. Both the
      receivable and the collection are FY 2011 activities. DEA does not have use of penalties
      collected; they are returned to the U.S. Treasury.
                              U.S. Department of Justice 

                           Drug Enforcement Administration 

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 2. Non-Entity Assets

      Non-entity assets are assets held by the DEA but are not available for use by the DEA. All
      of the DEA’s non-entity assets are with the public.

      As of September 30, 2010 and 2009

                                                        2010                 2009
       With the Public
        Cash and Monetary Assets                  $          7,999       $       5,561
        Accounts Receivable, Net                             1,528               1,541
             Total With the Public                           9,527               7,102
             Total Non-Entity Assets                         9,527               7,102
             Total Entity Assets                         1,304,283           1,320,571
             Total Assets                         $      1,313,810       $   1,327,673
                              U.S. Department of Justice 

                           Drug Enforcement Administration 

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 3. Fund Balance with U. S. Treasury

      The Fund Balance with U.S. Treasury reported on the consolidated balance sheets
      represents the undisbursed portion of all funds recorded in the DEA’s general ledger as of
      each reporting period. The September 30, 2010 and 2009 balances include $7,185 and
      $3,083 respectively, of funds that are restricted for the purchase of official government
      vehicles.

      Restricted unobligated funds consist of expired authority and holdings that were not
      transferred to Treasury but were unavailable for the DEA’s use. Restricted unobligated
      funds are presented in the table below as Unobligated Balance-Unavailable. Restricted
      funds include the collections of fees in excess of amounts budgeted for administering the
      Diversion Control Program. These collections may not be used until authorized by
      Congress.

      As of September 30, 2010 and 2009

                                                                   2010             2009
     Fund Balances
       Special Funds                                           $    125,217    $    144,693
       General Funds                                                683,818         638,728
          Total Fund Balances with U.S. Treasury               $    809,035     $   783,421

     Status of Fund Balances
        Unobligated Balance – Available                        $  195,008       $ 313,155
        Unobligated Balance – Unavailable                          28,383           10,724
        Obligated Balance not yet Disbursed                       595,067         466,331
        Other Funds (With)/Without Budgetary Resources           ( 9,423)         ( 6,789)
          Total Status of Fund Balances                        $ 809,035        $ 783,421

      Other Funds (With)/Without Budgetary Resources include clearing and deposit accounts,
      imprest fund cash and receipts.
                             U.S. Department of Justice 

                          Drug Enforcement Administration 

                             Notes to the Financial Statements

                             (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 4. Cash and Monetary Assets

      As of September 30, 2010 and 2009

                                                         2010               2009
      Cash
         Undeposited Collections                     $         21       $        18
         Imprest Funds                                      5,392             4,514
         Other Cash                                         7,547             4,982
            Total Cash                                     12,960             9,514

      Monetary Assets
        Seized Monetary Instruments                           447               575
            Total Monetary Assets                             447               575
            Total Cash and Monetary Assets           $     13,407       $    10,089

     Other cash consists of funds used for special purposes.
                              U.S. Department of Justice 

                           Drug Enforcement Administration 

                             Notes to the Financial Statements

                             (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 5. Accounts Receivable, Net

      As of September 30, 2010 and 2009

                                                           2010             2009
       Intragovernmental
           Accounts Receivable                        $     39,117      $    72,897
             Total Intragovernmental                        39,117           72,897
       With the Public
           Accounts Receivable                                3,939
           4,208 

           Allowance for Uncollectible Accounts             (1,614)
         (1,665) 

              Total With the Public                           2,325
           2,543 

              Total Accounts Receivable, Net          $     41,442      $    75,440


Note 6. Inventory and Related Property, Net

      As of September 30, 2010 and 2009

                                                           2010             2009
       Operating Materials and Supplies
         Held for Current Use                          $      6,770     $     6,862




                                           - 67 -
                              U.S. Department of Justice 

                           Drug Enforcement Administration 

                               Notes to the Financial Statements

                               (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 7. Forfeited and Seized Property

      Analysis of Change in Seized Property:

      Seized property is acquired during the course of an investigation. This property is
      considered contraband, evidence of a crime, or subject to forfeiture. Seized property
      includes monetary instruments, real property, and tangible personal property of others. The
      DEA reports seized property at market value when seized.

      Monetary seized property valued at $447 and $575 was held as evidence by the DEA on
      September 30, 2010 and 2009, respectively, and is included in Cash and Monetary Assets
      on the accompanying balance sheets (also refer to Note 4). The value of non-monetary
      property held as evidence is not reported in the accompanying consolidated balance sheets.
      Adjustments have been made to the beginning balances of seized property as a result of
      reconciling items from prior years.

      The analysis of drug evidence is presented in accordance with Federal Financial
      Accounting and Auditing Technical Release No. 4, Reporting on Non-Valued Seized and
      Forfeited Property. Drug evidence, as presented on the following tables, consists of
      analyzed and bulk drugs. Analyzed drug evidence includes cocaine, heroin, marijuana and
      methamphetamine and represents actual laboratory tested classification and weight in
      kilograms (KG). Since enforcing the controlled substances laws and regulations of the
      United States is a primary mission of the DEA, the DEA reports all analyzed drug evidence
      regardless of seizure weight.

      Bulk drug evidence is comprised of controlled substances housed by the DEA in secured
      storage facilities of which only a sample is taken for laboratory analysis. The actual bulk
      weight may vary from seizure weight due to changes in moisture content over time.
                                 U.S. Department of Justice 

                              Drug Enforcement Administration 

                                 Notes to the Financial Statements

                                 (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 7. Forfeited and Seized Property (continued)

      Unanalyzed drug evidence is qualitatively different from analyzed and bulk drug evidence
      because unanalyzed drug evidence includes the weight of packaging and drug categories
      are based on the determination of Special Agents instead of laboratory chemists. For these
      reasons, unanalyzed drug evidence is not reported by the DEA.

      For the Fiscal Year Ended September 30, 2010
          Seized Property              Beginning                                             Ending
             Category                   Balance Adjustments**       Seizures     Disposals   Balance
      Seized for Evidence
       Seized Monetary
       Instruments            Value     $    575     $         3    $     165    $     296   $    447
       Personal Property      Number          42              (1)          17           18         40
                              Value     $    266 $           (17)   $     227    $     202   $    274
       Non-Valued
        Firearms              Number        3,644          (136)          643          695       3,456
        Drug Evidence
         Cocaine              KG         343,142         (35,079)      33,526    69,501 272,088
         Heroin               KG           3,316            (184)         634       744   3,022
         Marijuana            KG          15,683                        5,325     4,937  16,071
         Bulk Drug Evidence   KG         223,936           1,278    1,128,098 1,125,748 227,564
         Methamphetamine      KG           6,264                        2,134     1,257   7,141
         Other                KG          46,185                        5,258     6,013  45,430
       Total Drug Evidence               638,526         (33,985)   1,174,975 1,208,200 571,316

      For the Fiscal Year Ended September 30, 2009
          Seized Property              Beginning                                             Ending
             Category                   Balance Adjustments**       Seizures     Disposals   Balance
      Seized for Evidence
       Seized Monetary        Value
       Instruments                      $    489     $        31    $     403    $     348   $    575
       Personal Property      Number          44               2             7          11         42
                              Value     $    286     $        14    $       59   $      93   $    266
       Non-Valued
        Firearms              Number        3,915            (85)         570          756       3,644
        Drug Evidence
         Cocaine              KG         387,020                       58,059   101,937 343,142
         Heroin               KG           3,143                          654       481   3,316
         Marijuana            KG          14,962                        5,033     4,312  15,683
         Bulk Drug Evidence   KG         216,689           2,358    1,200,533 1,195,644 223,936
         Methamphetamine      KG           5,895                        1,712     1,343   6,264
         Other                KG          51,273                        6,160    11,248  46,185
       Total Drug Evidence               678,982           2,358    1,272,151 1,314,965 638,526


     **Adjustments include property status and valuation changes received after, but properly
     credited to, prior fiscal years. Valuation changes include updates and corrections to an
      asset’s value recorded in a prior year.
                             U.S. Department of Justice 

                          Drug Enforcement Administration 

                              Notes to the Financial Statements

                             (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 7. Forfeited and Seized Property (continued)

      Method of Disposition of Seized Property:

      During FYs 2010 and 2009, $390 and $344 were returned to parties with a bonafide
      interest, and $108 and $97 were disposed of by other means, respectively. Other means of
      disposition include seized property that is sold, converted to cash, or destroyed.
                              U.S. Department of Justice 

                           Drug Enforcement Administration 

                                 Notes to the Financial Statements

                                 (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 8. General Property, Plant and Equipment, Net

      As of September 30, 2010             Acquisition       Accumulated      Net Book     Useful
                                              Cost           Depreciation      Value        Life
      Land and Land Rights               $     2,425       $           -    $     2,425      N/A
      Construction in Progress                 8,969                   -          8,969      N/A
      Buildings, Improvements, and
         Renovations                          86,537             24,551          61,986     50 yrs.
      Aircraft                               154,436             61,894          92,542   7-20 yrs.
      Boats                                    2,525              1,186           1,339     18 yrs.
      Vehicles                                84,682             38,815          45,867      5 yrs.
      Equipment                              202,687            127,655          75,032      5 yrs.
      Leasehold Improvements                 180,886            144,854          36,032   5-13 yrs.
      Internal Use Software                   43,155             20,156          22,999   5-10 yrs.
      Internal Use Software in
         Development                          34,946                   -         34,946       N/A
      Total                             $    801,248       $    419,111     $   382,137


      As of September 30, 2009             Acquisition       Accumulated      Net Book     Useful
                                              Cost           Depreciation      Value        Life
      Land and Land Rights               $     2,425       $           -    $     2,425      N/A
      Construction in Progress                 9,307                   -          9,307      N/A
      Buildings, Improvements, and
         Renovations                          80,395             19,808          60,587     50 yrs.
      Aircraft                               161,512             59,198         102,314   7-20 yrs.
      Boats                                    2,525              1,051           1,474     18 yrs.
      Vehicles                                74,269             36,176          38,093      5 yrs.
      Equipment                              204,451            134,932          69,519      5 yrs.
      Leasehold Improvements                 175,093            127,510          47,583   5-13 yrs.
      Internal Use Software                   41,909             14,317          27,592   5-10 yrs.
      Internal Use Software in
         Development                          28,431                  -          28,431       N/A
      Total                             $    780,317        $   392,992     $   387,325

      The DEA purchased $17,930 and $34,540 in capitalized property from federal sources
      during FY 2010 and 2009, respectively. Purchases of capitalized property from the public
      totaled $44,753 and $64,918 during FY 2010 and 2009, respectively.
                             U.S. Department of Justice 

                          Drug Enforcement Administration 

                             Notes to the Financial Statements

                             (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 9. Other Assets

      As of September 30, 2010 and 2009

                                                        2010                 2009
       Intragovernmental
            Advances and Prepayments                $     51,090        $     55,295


Note 10. Liabilities not Covered by Budgetary Resources

      As of September 30, 2010 and 2009

                                                                            2010           2009
       Intragovernmental
         Accrued FECA Liabilities                                       $   26,651     $   25,594
         Other Unfunded Employment Related Liabilities                          68             (2)
           Total Intragovernmental                                          26,719         25,592

       With the Public
        Actuarial FECA Liabilities                                        144,858        139,308
        Accrued Annual and Compensatory Leave Liabilities                  98,608         93,474
        Deferred Revenue                                                  311,164        269,840
        Contingent Liabilities (Note 14)                                    4,928         16,995
           Total With the Public                                          559,558        519,617
           Total Liabilities not Covered by Budgetary Resources           586,277        545,209
           Total Liabilities Covered by Budgetary Resources               246,647        256,699
           Total Liabilities                                            $ 832,924      $ 801,908




                                           - 72 -
                              U.S. Department of Justice 

                           Drug Enforcement Administration 

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 11. Leases

      In the course of operations, the DEA obtains certain property through leasing
      arrangements. These leases may be capital leases or operating leases as defined by SFFAS
      No. 5, Accounting for Liabilities of the Federal Government. The DEA does not act as a
      lessor. The DEA does not currently have any capital leases.

      Operating Lease Expenses

        Lease Type                                               2010                    2009
         Noncancelable Operating Leases                     $       12,250           $      12,590
         Cancelable Operating Leases                               212,358                 195,863
              Total Operating Lease Expenses                $      224,608           $     208,453

      Noncancelable Operating Leases

      In addition to GSA office space, leased assets are primarily for computer workstations.
      Lease terms are generally one year with an option to renew between three and five years.
      Most leases with GSA are cancelable and may be terminated without incurring charges.

      Future Noncancelable Operating Lease Payments Due

                                                                             Land and
       Fiscal Year                                                           Buildings
         2011                                                            $           12,370
         2012                                                                        12,439
         2013                                                                        12,509
         2014                                                                        12,582
         2015                                                                        12,657
        After 2015                                                                   53,469
          Total Future Noncancelable Operating
             Lease Payments                                              $         116,026
                                   U.S. Department of Justice 

                                Drug Enforcement Administration 

                                    Notes to the Financial Statements

                                    (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 12. Seized Cash and Monetary Instruments

       The seized monetary instruments represent liabilities for seized assets held by the DEA
       pending disposition. The DEA may seize monetary instruments as part of its
       investigations. Some seized monetary instruments are retained by the DEA and reported as
       evidence. Seized monetary instruments valued at $447 and $575 was held as evidence by
       the DEA on September 30, 2010 and 2009, respectively, and is included in Cash and
       Monetary Assets on the accompanying balance sheets. The DEA reports all of its
       monetary instruments held as evidence under the heading of seized cash and monetary
       instruments. None of the monetary instruments held as evidence or for safekeeping as
       reported in Note 7 is deposited.


Note 13. Other Liabilities

       All “other” liabilities are current liabilities.
       As of September 30, 2010 and 2009 

                                                                   2010            2009

        Intragovernmental
           Employer Contributions and Payroll Taxes Payable    $      17,157   $     15,276
           Other Post-Employment Benefits Due and Payable                 15             44
           Other Unfunded Employment Related Liabilities                  68             (2)
           Advances from Others                                           29               -
           Liability for Deposit Fund, Clearing Accounts
           and Undeposited Collections                                 1,457          1,588
           Other Liabilities                                           7,547          4,982
              Total Intragovernmental                                 26,273         21,888

        With the Public
          Other Accrued Liabilities                                        6              8
          Advances from Others                                             -              4
          Other Liabilities                                               86             55
              Total With the Public                                       92             67

              Total Other Liabilities                         $       26,365   $     21,955 

                               U.S. Department of Justice 

                            Drug Enforcement Administration 

                                Notes to the Financial Statements

                                (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 14. Contingencies and Commitments

      The DEA is party to various administrative proceedings, legal actions, and claims. The
      balance sheet includes an estimated liability for those legal actions where management and
      the Chief Counsel consider adverse decisions “probable” and amounts are reasonably
      estimable.

                                                                               Estimated Range of Loss
                                                    Accrued Liabilities        Lower            Upper
         As of September 30, 2010
               Probable                              $           4,928     $        4,928   $       4,928
               Reasonably Possible                                         $        4,493   $       4,493

         As of September 30, 2009
               Probable                             $           16,995     $      16,995    $      16,995
               Reasonably Possible                                         $       3,283    $       3,283
                              U.S. Department of Justice 

                           Drug Enforcement Administration 

                               Notes to the Financial Statements

                               (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 15. Earmarked Funds

     Earmarked funds are financed by specifically identified revenues, often supplemented by
     other financing sources, which remain available over time. These specifically identified
     revenues and other financing sources are required by statute to be used for designated
     activities, benefits, or purposes, and must be accounted for separately from the
     Government’s general revenues. Other financing sources include Transfer-In/Out without
     Reimbursement and Imputed Financing from Costs Absorbed by Others.

     Public Law 102–395 established the Diversion Control Fee Account in 1993. Fees charged
     to private sector registrants by the DEA under the Diversion Control Program are set at a
     level that ensures the recovery of the full costs of operating this program. The program’s
     purpose is to prevent, detect, and investigate the diversion of controlled substances from
     legitimate channels, while ensuring an adequate and uninterrupted supply of controlled
     substances required to meet legitimate needs. Strategic objectives include: (1) Identifying
     and targeting those responsible for the diversion of pharmaceutical controlled substances
     through traditional investigation and cyber crime initiatives to systematically disrupt and
     dismantle those entities involved in diversion schemes; (2) Supporting the registrant
     population with improved technology, including E-Commerce and customer support while
     maintaining cooperation, support, and assistance from the regulated industry; (3) Educating
     the public on the dangers of prescription drug abuse and taking proactive enforcement
     measures to combat emerging drug trends; and, (4) Ensuring an adequate and uninterrupted
     supply of controlled substances to meet medical and scientific needs.

      The Diversion Control Fee Account is a separate account in the General Fund of the
      Treasury. Each fiscal year, offsetting receipts of $15 million are deposited in the Diversion
      Control Fee Account for the operation of the Diversion Control Program. These amounts
      remain available until expended and are refunded out of that account by the Secretary of
      the Treasury for reimbursement for expenses incurred in the operation of the Diversion
      Control Program. In order to sustain operations in both the first quarter (each fiscal year,
      federal statutes require $15 million of the total fees collected for the Diversion Control
      Program to be transferred to the U.S. Treasury) and in years where fees collected do not
      equal spending requirements, the Diversion Control Fee Account operates similarly to a
      revolving fund in that excess collections are carried over to the next fiscal year.
                                   U.S. Department of Justice 

                                Drug Enforcement Administration 

                                    Notes to the Financial Statements

                                    (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 15. Earmarked Funds (continued)

    As of September 30, 2010 and 2009
                                                                    2010                    2009
                                                              Diversion Control       Diversion Control
                                                                Fee Account             Fee Account
   Balance Sheets
   Assets
     Fund Balance with U.S. Treasury                          $         123,755   $              143,100
     Other Assets                                                        52,534                   46,228
        Total Assets                                          $         176,289   $              189,328


    Liabilities
     Accounts Payable                                         $           8,479   $                  995
     Other Liabilities                                                  327,089                  288,891
        Total Liabilities                                     $         335,568   $              289,886

    Net Position
     Cumulative Results of Operations                         $       (159,279)    $           (100,558)
        Total Net Position                                    $       (159,279)   $            (100,558)
        Total Liabilities and Net Position                    $        176,289    $              189,328

   For the Fiscal Years Ended September 30, 2010 and 2009
   Statements of Net Cost
     Gross Cost of Operations                                 $         255,152   $              217,450
     Less: Exchange Revenues                                            189,376                  179,933
         Net Cost of Operations                                $        65,776         $          37,517


   Statements of Changes in Net Position
     Net Position Beginning of Period                         $       (100,558)   $              (69,174)
     Other Financing Sources                                              7,055                     6,133
        Total Financing Sources                                           7,055                     6,133
     Net Cost of Operations                                            (65,776)                  (37,517)
     Net Change                                                        (58,721)                 ( 31,384)
     Net Position End of Period                               $       (159,279)   $            (100,558)
                                    U.S. Department of Justice 

                                 Drug Enforcement Administration 

                                       Notes to the Financial Statements

                                     (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 16. Net Cost of Operations by Suborganization
For the Fiscal Year Ended September 30, 2010
                                                        Suborganizations
                                                   All Other          Diversion        Consolidated

 Goal 1: Prevent Terrorism and Promote the Nation’s Security

    Gross Cost                                 $         100,315     $             -   $     100,315 

    Less: Earned Revenue                                     632                   -             632 

    Net Cost (Revenue) of Operations                      99,683                   -          99,683

 Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American
 People

    Gross Cost                                        $ 2,546,050    $      255,152    $   2,801,202
    Less: Earned Revenue                                  488,294           189,376          677,670
    Net Cost (Revenue) of Operations                    2,057,756            65,776        2,123,532

 Net Cost (Revenue) of Operations                       2,157,439            65,776        2,223,215

For the Fiscal Year Ended September 30, 2009
                                                        Suborganizations
                                                   All Other           Diversion       Consolidated

 Goal 1: Prevent Terrorism and Promote the Nation’s Security

    Gross Cost                                 $            66,558    $            -   $       66,558
    Less: Earned Revenue                                       536                 -              536
    Net Cost (Revenue) of Operations                        66,022                 -           66,022

 Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American
 People

    Gross Cost                                 $         2,455,198   $      217,450    $    2,672,648
    Less: Earned Revenue                                   412,814          179,933           592,747
    Net Cost (Revenue) of Operations                     2,042,384           37,517         2,079,901

 Net Cost (Revenue) of Operations                        2,108,406           37,517         2,145,923
                              U.S. Department of Justice 

                           Drug Enforcement Administration 

                               Notes to the Financial Statements

                               (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 17. Imputed Financing from Costs Absorbed by Others

     Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e., non-
     reimbursed and under-reimbursed) portion of the full costs of goods and services received
     by the DEA from a providing entity that is not part of the U.S. Department of Justice. In
     accordance with SFFAS No. 30, Inter-Entity Cost Implementation Amending SFFAS 4,
     Managerial Cost Accounting Standards and Concepts, the material Imputed Inter-
     Departmental financing sources recognized by the DEA are the cost of benefits for the
     Federal Employees Health Benefits Program (FEHB), the Federal Employees’ Group Life
     Insurance Program (FEGLI), the Federal Pension plans that are paid by other Federal
     entities, and any un-reimbursed payments made from the Treasury Judgment Fund on
     behalf of the DEA. The Treasury Judgment Fund was established by the Congress and
     funded at 31 U.S.C. 1304 to pay in whole or in part the court judgments and settlement
     agreements negotiated by the Department on behalf of agencies, as well as certain types of
     administrative awards. Interpretation of Federal Financial Accounting Standards
     Interpretation No. 2, Accounting for Treasury Judgment Fund Transactions, requires
     agencies to recognize liabilities and expenses when unfavorable litigation outcomes are
     probable and the amount can be estimated and will be paid by the Treasury Judgment Fund.

      SFFAS No. 5, Accounting for Liabilities of the Federal Government, requires that
      employing agencies recognize the cost of pensions and other retirement benefits during
      their employees’ active years of service. SFFAS No. 5 requires OPM to provide cost
      factors necessary to calculate cost. OPM actuaries calculate the value of pension benefits
      expected to be paid in the future, and then determine the total funds to be contributed by
      and for covered employees, such that the amount calculated would be sufficient to fund the
      projected pension benefits. For employees covered by Civil Service Retirement System
      (CSRS), the cost factors are 30.1% of basic pay for regular, 51.1% for law enforcement
      officers, 23.5% regular offset, and 45.6% law enforcement officers offset. For employees
      covered by Federal Employee Retirement System (FERS), the cost factors are 13.8% of
      basic pay for regular and 29.8% for law enforcement officers.

      The cost to be paid by the other agencies is the total calculated future costs, less employee
      and employer contributions. In addition, other retirement benefits, which include health
      and life insurance that are paid by other Federal entities, must also be recorded.
                                U.S. Department of Justice 

                             Drug Enforcement Administration 

                                  Notes to the Financial Statements

                                  (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 17. Imputed Financing from Costs Absorbed by Others (continued)

     For the Fiscal Years Ended September 30, 2010 and 2009 

                                                                 2010            2009

      Imputed Inter-Departmental Financing 

         Treasury Judgment Fund                             $      6,016     $     6,868
         Health Insurance                                         46,899          46,203
         Life Insurance                                              195             183
         Pension                                                  22,599          13,144
            Total Imputed Inter-Departmental                 $    75,709     $    66,398


      The U.S. Department of the Treasury makes payments for the Judgment Fund, while the
      OPM pays health insurance, life insurance, and pension amounts in excess of government
      and employee contributions.

      Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4,
      Managerial Cost Accounting Standards and Concepts, are the unreimbursed portion of the
      full costs of goods and services received by the DEA from a providing entity that is part of
      the Department. Recognition is required for those transactions determined to be material to
      the receiving entity. The determination of whether the cost is material requires
      considerable judgment based on the specific facts and circumstances of each type of good
      or service provided. SFFAS No. 4 also states that costs for broad and general support need
      not be recognized by the receiving entity, unless such services form a vital and integral part
      of the operations or output of the receiving entity. Costs are considered broad and general
      if they are provided to many, if not all, reporting components and not specifically related to
      the receiving entity’s output. The DEA currently does not record any Imputed Intra-
      Departmental Financing Sources.
                                U.S. Department of Justice 

                             Drug Enforcement Administration 

                                 Notes to the Financial Statements

                                 (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 18. Information Related to the Statement of Budgetary Resources

      Apportionment Categories of Obligations Incurred:

      The direct and reimbursable obligations under Categories A and B are reported in the table
      below. Apportionment categories are determined in accordance with the guidelines
      provided in Part 4 “Instructions on Budget Execution” of OMB Circular A-11 Preparation,
      Submission and Execution of the Budget. Category A represents resources apportioned for
      calendar quarters and Category B represents resources apportioned for other time periods
      or for activities, projects, objectives or for a combination thereof.

                                                                                           Total
                                                        Direct          Reimbursable    Obligations
                                                      Obligations        Obligations     Incurred
       For the Fiscal Year Ended September 30, 2010
         Obligations Apportioned Under
          Category A                                  $ 2,404,852       $     519,774   $ 2,924,626
          Category B                                      127,822                   -       127,822
         Total                                        $ 2,532,674       $     519,774   $ 3,052,448

       For the Fiscal Year Ended September 30, 2009
         Obligations Apportioned Under
          Category A                                  $ 2,267,417       $     438,515   $ 2,705,932
          Category B                                       37,095                   -        37,095
         Total                                        $ 2,304,512       $     438,515   $ 2,743,027



      Status of Undelivered Orders:

      Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which
      have not been actually or constructively received. This amount includes any orders which
      may have been prepaid or advanced but for which delivery or performance has not yet
      occurred.

      As of September 30, 2010 and 2009

                                                            2010              2009
                   UDO Obligations Unpaid                 $ 536,545         $ 435,906
                   UDO Obligations Prepaid/Advanced          60,473            63,886
                     Total UDO                            $ 597,018         $ 499,792
                                U.S. Department of Justice 

                             Drug Enforcement Administration 

                                 Notes to the Financial Statements

                                 (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 18. Information Related to the Statement of Budgetary Resources (continued)

      Statement of Budgetary Resources vs. the Budget of the United States Government:

      The following table identifies known differences between the DEA’s Statement of
      Budgetary Resources and the Budget of the United States. The reconciliation as of
      September 30, 2010 is not presented because the submission of the Budget of the United
      States Government (Budget) for FY 2012, which presents the execution of the FY 2010
      Budget, occurs after publication of these financial statements. The Department of Justice
      Budget Appendix can be found on the OMB website (http://www.whitehouse.gov/omb/budget)
      and will be available in early February 2011.

      For the Fiscal Year Ended September 30, 2009
      (Dollars in Millions)

                                                                                   Distributed
                                                 Budgetary        Obligations      Offsetting             Net
                                                 Resources         Incurred         Receipts             Outlays

       Statement of Budgetary Resources (SBR)    $    3,067       $     2,743      $       236       $      2,051

       Funds not Reported in the Budget:
          Expired Funds                                 (42)                (32)                 -                 -
         Appropriated Trust or Special Fund
           Receipts                                        -                   -                 -           235
         Redistribution of Clearing Accounts
           and Miscellaneous Receipts                     -                 -               (1)                  1
         Other                                            -                 -                 -                (1)
       Budget of the United States Government    $    3,025       $     2,711      $       235       $      2,286



      In addition to the above, reconciliation with the SF-133, Report on Budget Execution and
      Budgetary Resources, was performed. This reconciliation confirmed that differences
      between the Statement of Budgetary Resources and the SF-133 are also the result of the
      adjustments identified above.
                              U.S. Department of Justice 

                           Drug Enforcement Administration 

                              Notes to the Financial Statements

                              (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 19. Net Custodial Revenue Activity

      For the fiscal periods ended September 30, 2010 and 2009, DEA collected $20,963 and
      $59,961 respectively. These collections include $15 million of the total fees collected for
      the cost of operation of the Diversion Control Program and civil monetary penalties related
      to violations of the Controlled Substances Act that were incidental to DEA’s mission.
      Since DEA has no statutory authority to use these funds, DEA transmits them to the U.S.
      Treasury’s General Fund. The DEA has a custodial liability for funds that have not yet
      been transmitted to the U.S. Treasury’s General Fund. The September 30, 2010 and 2009
      balances for custodial liabilities were $ 1,584 and $ 2,310 respectively.
                                 U.S. Department of Justice 

                              Drug Enforcement Administration 

                                  Notes to the Financial Statements

                                  (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 20. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing)

      For the Fiscal Years Ended September 30, 2010 and 2009
                                                                                    2010          2009

      Resources Used to Finance Activities
        Budgetary Resources Obligated
           Obligations Incurred                                                  $ 3,052,448   $ 2,743,027
           Less: Spending Authority from Offsetting Collections and Recoveries       628,015       553,098
           Obligations Net of Offsetting Collections and Recoveries                2,424,433     2,189,929
           Less: Offsetting Receipts                                                 231,967       235,998
           Net Obligations                                                         2,192,466     1,953,931

         Other Resources
           Transfers-In/Out Without Reimbursement                                     9,518         12,323
           Imputed Financing from Costs Absorbed by Others (Note 17)                 75,709         66,398
           Net Other Resources Used to Finance Activities                            85,227         78,721
         Total Resources Used to Finance Activities                               2,277,693      2,032,652

      Resources Used to Finance Items not Part of the Net Cost of Operations
           Net Change in Budgetary Resources Obligated for Goods, Services,
              and Benefits Ordered but not Yet Provided                            (102,608)        64,709
           Resources That Fund Expenses Recognized in Prior Periods (Note 21)       (12,067)         (196)
           Resources That Finance the Acquisition of Assets                         (62,683)      (99,458)
           Other Resources or Adjustments to Net Obligated Resources
              That do not Affect Net Cost of Operations                              (1,714)        22,933
      Total Resources Used to Finance Items not Part of the Net Cost
          of Operations                                                            (179,072)      (12,012)

      Total Resources Used to Finance the Net Cost of Operations                 $ 2,098,621   $ 2,020,640
                                   U.S. Department of Justice 

                                Drug Enforcement Administration 

                                  Notes to the Financial Statements

                                  (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 20. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing) (continued)

       For the Fiscal Years Ended September 30, 2010 and 2009                    2010          2009

       Components of Net Cost of Operations That Will not Require

          or Generate Resources in the Current Period 


          Components That Will Require or Generate Resources
               in Future Periods (Note 21)                                   $    53,396   $    67,789
             Depreciation and Amortization                                        71,510        64,250
             Other                                                                 (312)        (6,756)

       Total Components of Net Cost of Operations That Will not
          Require or Generate Resources in the Current Period                    124,594       125,283

       Net Cost of Operations                                                $ 2,223,215   $ 2,145,923
                                U.S. Department of Justice 

                             Drug Enforcement Administration 

                                 Notes to the Financial Statements

                                 (Dollars in Thousands, Except as Noted)


______________________________________________________________________________
Note 21. 	Explanation of Differences Between Liabilities not Covered by Budgetary
          Resources and Components of Net Cost of Operations Requiring or Generating
          Resources in Future Periods

      Liabilities that are not covered by realized budgetary resources and for which there is not
      certainty that budgetary authority will be realized, such as the enactment of an
      appropriation, are considered liabilities not covered by budgetary resources. These
      liabilities totaling $586,277 and $545,209 on September 30, 2010 and 2009, respectively,
      are discussed in Note 10, Liabilities not Covered by Budgetary Resources. Decreases in
      these liabilities result from current year budgetary resources that were used to fund
      expenses recognized in prior periods. Increases in these liabilities represent unfunded
      expenses that were recognized in the current period. These increases, along with the
      change in the portion of exchange revenue receivables from the public, which are not
      considered budgetary resources until collected, represent components of current period net
      cost of operations that will require or generate budgetary resources in future periods. The
      changes in liabilities not covered by budgetary resources and receivables generating
      resources in future periods are comprised of the following:

      For the Fiscal Years Ended September 30, 2010 and 2009

                                                                                   2010              2009
        Resources that Fund Expenses Recognized in Prior Periods
         Decrease in Contingent Liabilities                                        (12,067)                -
         Decrease in Other Unfunded Employment Related Liabilities                        -            (196)
             Total Resources that Fund Expenses Recognized in Prior Periods      $ (12,067)      $     (196)

        Components of Net Cost of Operations that Will Require or Generate Resources in Future Periods
        Increase in Accrued Annual and Compensatory Leave Liabilities           $     5,134      $     5,385
        (Increase)/Decrease in Exchange Revenue Receivable from the Public              261               (7)
        Other
          Increase in Actuarial FECA Liabilities                                     5,550             1,935
          Increase in Accrued FECA Liabilities                                       1,057                91
          Increase in Deferred Revenue                                              41,324            54,510
          Increase in Contingent Liabilities                                              -            5,875
          Increase in Other Unfunded Employment Related Liabilities                      70                 -
            Total Other                                                             48,001            62,411
            Total Components of Net Cost of Operations That Will Require or
            Generate Resources in Future Periods                                $ 53,396          $ 67,789
Required Supplementary Information 

             Unaudited 

                                                                 U.S. Department of Justice

                                                              Drug Enforcement Administration

                                                            Required Supplementary Information

                                                       Combining Statement of Budgetary Resources

                                                       For the Fiscal Year Ended September 30, 2010

Dollars in Thousands
                                                                             S&E          Violent Crime        Diversion    Construction       Total
Budgetary Resources


 Unobligated Balance, Brought Forward, October 1                        $     235,861 $            204     $       87,806 $            8   $    323,879

 Recoveries of Prior Year Unpaid Obligations                                  111,847               45             17,235              -        129,127

 Budget Authority
   Appropriations Received                                                   2,053,353                 -          230,836              -       2,284,189
   Spending Authority from Offsetting Collections
      Earned
          Collected                                                           537,465                  2              209           126         537,802
          Change in Receivables from Federal Sources                          (33,532)                 -                -             -         (33,532)
      Change in Unfilled Customer Orders
          Advance Received                                                          25                 -                -             -               25
          Wi hout Advance from Federal Sources                                  (5,407)                -                -             -           (5,407)
 Subtotal Budget Au hority                                                   2,551,904                 2          231,045           126        2,783,077

 Nonexpenditure Transfers, Net, Actual                                          39,756               -                  -             -           39,756
Total Budgetary Resources                                               $    2,939,368 $           251     $      336,086 $         134    $   3,275,839


Status of Budgetary Resources
 Obligations Incurred
   Direct                                                               $    2,264,650 $               -   $      267,996 $          28    $   2,532,674
   Reimbursable                                                                519,774                 -                -             -          519,774
       Total Obligations Incurred                                            2,784,424                 -          267,996            28        3,052,448
 Unobligated Balance - Available
   Apportioned                                                                 126,561             251             68,090           106          195,008
 Unobligated Balance not Available                                              28,383               -                  -             -           28,383
Total Status of Budgetary Resources                                     $    2,939,368 $           251     $      336,086 $         134    $   3,275,839


Change in Obligated Balance
 Obligated Balance, Net - Brought Forward, October 1
   Unpaid Obligations                                                  $       623,944 $         5,548 $           55,294 $        2,460 $       687,246
   Less: Uncollected Customer Payments from Federal Sources                    220,915               -                  -              -         220,915
        Total Unpaid Obligated Balance, Net Brought Forward, October 1         403,029           5,548             55,294          2,460         466,331
 Obligations Incurred, Net                                                   2,784,423               -            267,997             28       3,052,448
 Less: Gross Outlays                                                         2,582,533             237            250,390            364       2,833,524
 Less: Recoveries of Prior Year Unpaid Obligations, Actual                     111,847              45             17,235              -         129,127
 Change in Uncollected Customer Payments from Federal Sources                   38,939               -                  -              -          38,939

 Obligated Balance, Net - End of Period
  Unpaid Obligations                                                          713,986            5,267             55,666          2,124        777,043
  Less: Uncollected Customer Payments from Federal Sources                    181,976                -                  -              -        181,976
      Total Unpaid Obligated Balance, Net - End of Period               $     532,010 $          5,267 $           55,666 $        2,124 $      595,067


Net Outlays
 Gross Outlays                                                          $    2,582,533 $           237     $      250,390 $         364    $   2,833,524
 Less: Offsetting Collections                                                  537,490               2                209           126          537,827
 Less: Distributed Offset ing Receipts                                           1,131               -            230,836             -          231,967

Total Net Outlays                                                       $    2,043,912 $           235     $       19,345 $         238    $   2,063,730
                                                                      U.S. Department of Justice
                                                                   Drug Enforcement Administration
                                                                 Required Supplementary Information
                                                             Combining Statement of Budgetary Resources
                                                            For The Fiscal Year Ended September 30, 2009
Dollars in Thousands
                                                                                   S&E            Violent Crime        Diversion    Construction       Total
Budgetary Resources


 Unobligated Balance, Brought Forward, October 1                            $         101,315     $           7    $       60,423   $          -   $    161,745

 Recoveries of Prior Year Unpaid Obligations                                             77,147             184             9,009              5         86,345

 Budget Authority
  Appropriations Received                                                            1,959,084                 -          234,512              -       2,193,596
  Spending Authority from Offsetting Collections
      Earned
          Collected                                                                   385,202                  -              159              3         385,364
          Change in Receivables from Federal Sources                                   39,199                  -                -              -          39,199
      Change in Unfilled Customer Orders                                                                                                                       -
          Advance Received                                                                  (9)                -                -              -              (9)
          Without Advance from Federal Sources                                          42,199                 -                -              -          42,199
 Subtotal Budget Authority                                                           2,425,675                 -          234,671              3       2,660,349

 Nonexpenditure Transfers, Net, Actual                                                 158,467                -                 -              -         158,467
Total Budgetary Resources                                                   $        2,762,604    $         191    $      304,103   $          8   $   3,066,906


Status of Budgetary Resources
 Obligations Incurred
   Direct                                                                   $        2,088,228    $          (13) $       216,297   $          -   $   2,304,512
   Reimbursable                                                                        438,515                 -                -              -         438,515
       Total Obligations Incurred                                                    2,526,743               (13)         216,297              -       2,743,027
 Unobligated Balance - Available
   Apportioned                                                                         225,137              204            87,806              8         313,155
 Unobligated Balance not Available                                                      10,724                -                 -              -          10,724
Total Status of Budgetary Resources                                         $        2,762,604    $         191    $      304,103   $          8   $   3,066,906


Change in Obligated Balance
 Obligated Balance, Net - Brought Forward, October 1
   Unpaid Obligations                                                       $          640,903 $           6,450 $         52,653   $      2,499   $     702,505
   Less: Uncollected Customer Payments from Federal Sources                            139,516                 -                -              -         139,516
        Total Unpaid Obligated Balance, Net - Brought Forward, October 1               501,387             6,450           52,653          2,499         562,989
 Obligations Incurred, Net                                                           2,526,743               (13)         216,297              -       2,743,027
 Less: Gross Outlays                                                                 2,466,556               705          204,646             34       2,671,941
 Less: Recoveries of Prior Year Unpaid Obligations, Actual                              77,147               184            9,009              5          86,345
 Change in Uncollected Customer Payments from Federal Sources                          (81,399)                -                -              -         (81,399)

 Obligated Balance, Net - End of Period
  Unpaid Obligations                                                                  623,944              5,548           55,294          2,460        687,246
  Less: Uncollected Customer Payments from Federal Sources                            220,915                  -                -              -        220,915
      Total Unpaid Obligated Balance, Net - End of Period                   $         403,029     $        5,548   $       55,294   $      2,460   $    466,331


Net Outlays
 Gross Outlays                                                              $        2,466,556    $         705    $      204,646   $         34   $   2,671,941
 Less: Offsetting Collections                                                          385,193                -               158              3         385,354
 Less: Distributed Offsetting Receipts                                                   1,486                -           234,512              -         235,998

Total Net Outlays                                                           $        2,079,877    $         705    $       (30,024) $         31   $   2,050,589
